<html>
<title> - [H.A.S.C. No. 111-133]ARMY ACQUISITION AND MODERNIZATION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-133]
 
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 10, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
56-269                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    AIR AND LAND FORCES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
MIKE McINTYRE, North Carolina        MARY FALLIN, Oklahoma
ROBERT A. BRADY, Pennsylvania        DUNCAN HUNTER, California
JIM COOPER, Tennessee                JOHN C. FLEMING, Louisiana
JIM MARSHALL, Georgia                MIKE COFFMAN, Colorado
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
BOBBY BRIGHT, Alabama                MICHAEL TURNER, Ohio
WILLIAM L. OWENS, New York           TODD RUSSELL PLATTS, Pennsylvania
DAN BOREN, Oklahoma
                  Doug Bush, Professional Staff Member
                 John Wason, Professional Staff Member
                     Scott Bousum, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 10, 2010, Army Acquisition and Modernization 
  Programs.......................................................     1

Appendix:

Wednesday, March 10, 2010........................................    47
                              ----------                              

                       WEDNESDAY, MARCH 10, 2010
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     4
Smith, Hon. Adam, a Representative from Washington, Chairman, Air 
  and Land Forces Subcommittee...................................     1

                               WITNESSES

Gilmore, Dr. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................    30
Lennox, Lt. Gen. Robert P., USA, Deputy Chief of Staff of the 
  Army, G-8......................................................     5
Markowitz, Dr. David M., Director of Capabilities Integration, 
  Prioritization, and Analysis and Technical Advisor to the 
  Deputy Chief of Staff of the Army, G-3.........................    12
Phillips, Lt. Gen. William N., USA, Military Deputy to the 
  Assistant Secretary of the Army for Acquisition, Technology, 
  and Logistics..................................................     8
Sullivan, Michael J., Director of Acquisition and Sourcing, U.S. 
  Government Accountability Office...............................    37

                                APPENDIX

Prepared Statements:

    Gilmore, Dr. J. Michael......................................    82
    Lennox, Lt. Gen. Robert P., joint with Lt. Gen. William N. 
      Phillips and Dr. David M. Markowitz........................    54
    Smith, Hon. Adam.............................................    51
    Sullivan, Michael J..........................................    92

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Kissell..................................................   113

Questions Submitted by Members Post Hearing:

    Mr. Kissell..................................................   117
    Mr. Owens....................................................   117
              ARMY ACQUISITION AND MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                         Washington, DC, Wednesday, March 10, 2010.
    The subcommittee met, pursuant to call, at 2:11 p.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
     WASHINGTON, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Smith. We will go ahead and call the meeting to order. 
We just finished up a series of votes, so I am sure there will 
be other members trickling in. We want to be respectful of our 
witness' time and take advantage of it as much as we can. We 
are fortunate in the sense that we have now a lengthy debate on 
the House floor, so we will not have votes for quite a while 
and should be able to get the hearing in without the normal 
interruptions--so pleased about that. And we will go ahead and 
get started.
    The subcommittee meets today to receive testimony on the 
Army's acquisition and modernization budget request for fiscal 
year 2011. And we welcome our witnesses for today. We have 
Lieutenant General Robert R. Lennox, who is the Deputy Chief of 
Staff, G-8. We have Lieutenant General William Phillips, 
Military Deputy to the Assistant Secretary of the Army, 
Acquisition, Logistics and Technology, and Dr. David M. 
Markowitz, Director of Capabilities, Integration, 
Prioritization and Analysis and technical advisor to the Deputy 
Chief of Staff, G-3.
    You must have a very big business card--or, sorry, not big 
so much as lengthy, lots of words on it.
    That will be our first panel. We will have a second panel 
as well. Dr. J. Michael Gilmore, who is the Director, 
Operational Test and Evaluation for the Office of the Secretary 
of Defense (OSD), and Mr. Michael Sullivan from the General 
Accounting--Accountability Office (GAO), director of 
acquisition and sources. So we will have two panels of 
witnesses today.
    In addition to these witnesses, the subcommittee 
specifically requested that the Army bring subject matter 
experts on all the major programs in the budget, so members 
should not hesitate to ask detailed questions.
    And I will leave it to your gentlemen's judgment as to who 
is best to answer those. All we ask is if we do have people 
come up, they be sure and speak clearly into the microphone and 
identify themselves before they answer questions.
    The Army's fiscal year 2011 base budget includes $10.3 
billion in research, development, test and evaluation and $21.3 
billion in procurement. The Army is requesting an additional 
$150 million for R&D and $8.9 billion in procurement in the 
overseas contingency operations (OCO), formally known as the 
supplemental. So we have a new name for it, but it is the same 
issue. And we will hopefully have that up sometime soon as 
well.
    Overall, this total request for $42.9 billion appears to be 
a solid request that will provide the Army with most of what it 
needs for today's wars and investments in future capabilities. 
And I think that is the major challenge of this committee. We 
have many obligations and, obviously, national security is of 
utmost importance at all times, but particularly important when 
we have our troops at war in two separate places in Iraq and 
Afghanistan.
    At the same time, even with those critical needs, we live 
in a world of finite resources, finite resources that seem to 
be getting more finite all the time, so I respect the difficult 
job that you gentlemen have to balance those needs, make sure 
we are providing for the warfighter, and at the same time doing 
it in a way that we can afford. It is a big challenge, and that 
is what this committee is going to be very focused on.
    With regard to specific programs, this hearing will 
highlight several new initiatives and changes to ongoing 
programs. First, the subcommittee expects to hear an update on 
the Army's new Ground Combat Vehicle (GCV) program. This 
program, begun in the wake of the termination in the Future 
Combat Systems' (FCS) manned vehicles, seeks to field a new 
infantry carrier by 2017. And as we go forward with this, the 
committee's main concern is that, frankly, we get a better 
result than we got out of Future Combat Systems.
    And we understand the challenges. It is our view that a 
big, big part of the challenge was that we set a very, very 
aggressive set of specifics, capabilities that we were looking 
for out of these programs that were perhaps a little bit 
unrealistic in terms of what they were going to be able to 
achieve. At the same time, we then set it on a very aggressive 
schedule, which put us in a position of having to authorize 
procurement of pieces of equipment that had not yet tested out.
    It was a bad combination, and we hope we have all learned 
from that experience as we go forward with the Ground Combat 
Vehicle, as well as our other programs, to make sure that we 
are realistic about the capabilities that we can accomplish and 
then set a timeline that makes sense, because we want to make 
sure that we are not procuring stuff that has not yet been 
proven to work.
    To do that, I think we need to be very diligent on those 
issues as we go forward. The Ground Combat Vehicle will be a 
central piece of that.
    So we hope we will do better on that. And I think similar 
things can be said about the other pieces that are left of the 
Future Combat Systems program, which is now dubbed the Early 
Infantry Brigade Combat Team (EIBCT).
    Again, a lot of the pieces of that were very ambitious, and 
we did not quite measure up. And as we we are going forward 
with determinations of what to buy out of those remaining 
pieces, we want to make sure that it has tested out. We had 
some very concerning test results recently on a number of the 
programs within the EIBCT, and we want to make sure that those 
are fixed before we go forward and buy more.
    And we also have a concern that the Future Combat Systems 
program, even though it has been officially terminated, its 
base contract with the lead systems integrators (LSI), Boeing 
and SAIC, lives on. So we have sort of main contractors for a 
program that has now been changed.
    As a result of this contract, the Army appears destined to 
be committed to using an LSI for the EIBCT program through 
2014, more than five years after the base FCS program was 
terminated by the Department. So we will want to see how that 
balances out. I am curious about your thoughts on that.
    With regard to the Stryker vehicle program, I am aware that 
the Army is considering a new double-V hull upgrade for some 
Strykers in order to improve their protection against 
Improvised Explosive Devices (IEDs). I look forward to hearing 
an update on the status of that plan today. We obviously 
consider this to be a very important issue, since it is force 
protection focused.
    At the same time, we want to make sure that we can do it in 
a way that doesn't take away the advantages that the Stryker 
gives us. We have a number of the Stryker brigades actually out 
of my district, out of Fort Lewis. I have had the opportunity 
to talk to a number of soldiers from within those brigades. 
They love the Stryker. They love the Stryker mainly because of 
how mobile it is. It gives them at least a little bit of the 
ability to control their own destiny in a firefight or if they 
encounter an IED.
    So we want to make sure we strike that balance. At the same 
time, if we can make it safer, do it in a responsible way and 
get this program done, we would love to be able to get that 
done. So I want to hear from you about how we can go about 
doing that.
    Another issue facing the Army this year is the future of 
the M4 carbine. Now, the Army has fielded hundreds of thousands 
of these weapons in recent years and is now looking at both an 
upgrade program and a potentially new weapon development effort 
as well.
    And basically, you know, what we are going to be looking at 
on that is, you know, balancing the reports, and there were a 
lot of troubling reports about the performance of the M4 with a 
lot of the tasks that have frankly shown it to be performing 
quite well. And if it is performing quite well and if in fact 
this is just anecdotal stories about problems with the gun, not 
a systemic problem, then obviously that is the most cost 
effective way to deal with it.
    We also want to hear more about how you plan to balance the 
looking at a new gun while at the same time looking at ways to 
update the one that you have. How are you planning on balancing 
that out to meet the needs and do so in a cost effective way?
    Finally, today's hearing also covers areas that don't get 
that much attention in the media, but which represent very 
large annual investments by the Army: communications, equipment 
and trucks.
    This is a critical year for the Joint Tactical Radio System 
(JTRS), which recently transitioned to the Army for program 
management. The success or failure of elements of this program 
will have long-lasting implications for Army communications and 
network equipment.
    In the area of trucks, the Army continues to spend billions 
a year on a wide range of vehicles. Of note this year is a 
shift to production for Army medium trucks from BAE to Oshkosh. 
We are also interested and we understand at both BAE and 
Oshkosh with different vehicles, we have a fair number of 
vehicles that have been completed but have not yet been 
distributed. And we are curious about the reason for that delay 
and how big a problem you think that delay is and what we are 
doing to deal with it, if in fact it is a problem.
    In addition, the Army's future plans for Humvee production 
appear to have changed significantly with funding for new U.S. 
Army Humvees being zeroed out in the 2011 budget submission, 
and we would be curious to hear more about your thinking behind 
that decision and the future, how it impacts the future of our 
tactical vehicles.
    With that, I will turn it over to the ranking member on the 
committee, Mr. Bartlett, for his opening statement. And I will 
also ask unanimous consent to submit--I have additional 
comments in my statement that I did not read--to submit those 
for the record.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    Mr. Smith. Mr. Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    First, I would like to take this opportunity to welcome my 
friend from Washington to the Air and Land Forces Subcommittee 
and congratulate him on his selection as chairman. This 
subcommittee has a long record of working together in order to 
properly equip our Army and Air Force. I am looking forward to 
working with you. Again, Mr. Chairman, welcome.
    To our witnesses for both panels, thank you for being here. 
We are very fortunate to have each of you serving our country 
and to have you here today. I would also like to congratulate 
General Phillips on his recent promotion to lieutenant general.
    Mr. Chairman, I have just a couple of issues I would like 
to quickly highlight. First is in regards to electromagnetic 
pulse (EMP). Essentially all of our new weapons systems have 
been built with a waiver for EMP hardening. I won't get into 
the details here, although I believe it is an extremely 
important issue. General Phillips and I briefly discussed this 
last week, so I know the Army plans on following up with me in 
the near future to discuss my concerns.
    In addition, I continue to be concerned about the continued 
decline in research and development (R&D) funding. From 1983 
till today, our investment in basic defense research as a 
percentage of GDP has declined by 50 percent. As a farmer, I 
will tell you that this is no different or less dangerous than 
a farmer eating their seed corn.
    It is politically easy to cut research, because we can't 
see the future harvest from innovation. However, as a scientist 
and engineer, I can guarantee you that unless we reverse the 
decline in basic applied and advanced research funding, we will 
cripple America's ability to maintain a technological world 
leadership in future decades.
    This not only impacts potential future capabilities for our 
warfighters, but also has an industrial base impact. With our 
technical workforce aging, we are in danger of losing our 
intellectual capital. We need to develop the next generation of 
engineers and scientists that will ensure the world's greatest 
innovators reside here in this country. So I hope to learn more 
from the Army in regards to how they are doing in this area.
    Thank you for being here, and I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Bartlett. And thank you 
for the welcome to the committee.
    It is a privilege to be the chair of this committee. I have 
served on it for many years and appreciate Mr. Bartlett's 
leadership and very much appreciate what the former chairman, 
Mr. Abercrombie, and Mr. Bartlett did in working in a 
bipartisan way. There are certainly disagreements on this 
committee. The great thing about it is frequently they are not 
partisan, and they are always handled in a very professional 
way. And I hope I can live up to the standard that Mr. 
Abercrombie and Mr. Bartlett have set in that regard.
    And with that, we will turn it over to our witnesses for 
the testimony. My understanding is that General Lennox is going 
to go first.
    General, you may proceed.

 STATEMENT OF LT. GEN. ROBERT P. LENNOX, USA, DEPUTY CHIEF OF 
                     STAFF OF THE ARMY, G-8

    General Lennox. Well, good afternoon, Chairman Smith, 
Ranking Member Bartlett and distinguished members of the 
Subcommittee on Air and Land Forces.
    We thank you for this opportunity to discuss the Army 
acquisition and modernization programs and specifically those 
that involve the fiscal year 2011 budget request. We are 
pleased to represent the Army leadership, members of the Army 
acquisition workforce, and the more than one million courageous 
men and women in uniform who have deployed to combat over the 
last eight years and have relied on us to provide them with 
world-class weapons systems and equipment for mission success.
    As Chairman Smith mentioned, my name is Bob Lennox, and I 
am the Deputy Chief of Staff for the Army, the G-8. And my 
responsibility in that capacity is equipping the Army units 
primarily. I am joined today by Lieutenant General Bill 
Phillips, the Military Deputy to the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology, and by Dr. Dave 
Markowitz, the Director of Capabilities Integration, 
Prioritization and Analysis in the Army G-357.
    I will start the comments, sir, by talking about Army 
modernization and what is different this year from last. In our 
primary three lines of effort that we are going to be following 
in Army modernization, first is our plan. Our first line of 
effort is buying new, buying new equipment to fill capability 
gaps.
    The Secretary of Defense has talked recently about winning 
today's wars and then having the capability to hedge against an 
uncertain future. And that is the aim of our procurement, and I 
think you will see it. Our main focus in our modernization 
program is the Brigade Combat Team modernization strategy. If 
you will permit me, I will come back and talk about that a 
little bit later.
    But we have also invested in a number of capabilities 
designed to win today's wars. So, for example, the Extended 
Range Multi-Purpose (ERMP) Unmanned Aerial Vehicle (UAV). We 
have invested in fiscal year 2011 about $500 million in an 
Intelligence, Surveillance, and Reconnaissance (ISR) capability 
designed to help win today's fight. In fact, there is a Quick 
Reaction Capability in Afghanistan performing today.
    We are buying aviation capabilities. We are forming the 
12th Combat Aviation Brigade, and in fiscal year 2011 we begin 
the purchase of the 13th Combat Aviation Brigade. And it will 
be about $6.6 billion invested in the 13th Combat Aviation 
Brigade.
    And we are buying to equip our reserve component. In fact, 
the Army National Guard from September 2008 to September 2010 
will experience 11 percent increase in their equipment on hand 
and a 12 percent increase in their modernization rates. So that 
is the first line of effort, buying new capabilities to fill 
the capability gaps that we need for today and in the future.
    The second one is sustaining existing systems through the 
insertion of upgraded capabilities, recapitalization, and then 
in fact divesting capabilities that we no longer need, trying 
to keep our forces relevant and capable for the future.
    For example, we are talking about the OH-58 Delta Kiowa 
Warrior. We see having to sustain the Kiowa Warrior through 
2025, and we are investing in upgrades not only to the safety 
of the airframe, but enhancing the cockpit and sensors as well. 
This includes efforts to lighten the soldier's load.
    And I was fortunate enough to talk to the committee about 
13 months ago about force protection. I understand there is a 
committee hearing on this next week.
    But we are comfortable talking about those issues today, 
improvements on things like the Improved Outer Tactical Vest 
(IOTV), fielding plate carriers that are about six pounds 
lighter than the IOTV to help our soldiers lighten the load and 
what they carry, and then divesting our oldest equipment, the 
UH1 Huey, born in Vietnam. The last one went out of the 
inventory in December 2009.
    And the last M35 deuce and a half truck that you have heard 
about over all these many years will be out of the inventory by 
the end of fiscal year 2011. So that is our second priority 
area: continuing to sustain and upgrade the fleet that we have 
got and divesting capabilities that are no longer useful.
    The third area is fielding according to Army priorities. 
And in October of 2009, we published the Army equipping 
strategy. And in there we talked about going away from a tiered 
readiness approach to one that fields the soldiers with the 
equipment they need to be successful in combat.
    So every soldier going to combat, regardless of component, 
regardless of being in the active force, the National Guard or 
Reserve component, is fielded with the very finest equipment 
that we can field. And this includes priority and National 
Guard units doing homeland security missions, disaster relief, 
and support to civil authorities.
    And you will find that in the National Guard, for example, 
our investment from 2001 through the end of our program in 2015 
will amount to an average of $3.4 billion a year to enhance 
their readiness for those missions.
    Now, if you will permit me, sir, I will go back to our 
Brigade Combat Team modernization strategy and spend a few 
moments on what we think is our hallmark effort. And this is 
the main change on our modernization strategy from last year to 
this year when we had a Future Combat Systems focused 
modernization strategy, and today it has changed to the Brigade 
Combat Team modernization strategy.
    There are four elements to the Brigade Combat Team 
modernization strategy. The first is incremental improvements 
to our network. Empowering soldiers, dismounted soldiers, is 
one of the critical aspects of our incremental modernization 
strategy in the area of network, giving them the capability to 
receive digital information to know where they are, where the 
enemy is, and empower them on the ground to make the most 
knowledgeable decisions in an era where the individual soldier 
is so much more important than even ever before.
    The second aspect of that is to being able to accomplish 
battle command on the move. Today we fielded the Warfighter 
Information Network-Tactical (WIN-T) Increment One program, the 
Warfighter Information Network Increment One, and that is about 
fielded. And that starts to provide broadband capability down 
to our lowest units. Increment Two, which fields starting in 
fiscal year 2012, starts to deliver a capability of battle 
command on the move. And Increment Three, then, adds an aerial 
layer and enhances that battle command on the move capability. 
That is element one of our Brigade Combat Team modernization 
strategy.
    Our second one is the pledge that we will incorporate the 
Mine Resistant Ambush Protected (MRAP) vehicles and the MRAP 
All Terrain Vehicle (ATV) into our formations.
    The third tenet is accelerating and fielding of capability 
packages to Infantry Brigade Combat Teams (IBCTs). These are 
the FCS spinouts that we think are technologically ready, that 
include things like small robots, unmanned sensors, the Class I 
UAV unmanned aerial vehicle, vertical launch vehicle, to 29 
IBCTs, Infantry Brigade Combat Teams, by fiscal year 2016.
    Now, as Chairman Smith mentioned, these did have some 
challenges in their initial round of testing. They were found 
to be oversize in some case, overweight in other cases, and in 
some cases the mean time between failures did not measure up to 
the standards we want.
    There are two more testing opportunities. There is one this 
August, and there is one next summer. We think we are on a path 
to demonstrate the capabilities that we can accomplish those 
capabilities.
    But I want to assure this committee that if the 
capabilities do not measure up, we will not go forward with 
those capabilities, and we will not put them in the hands of 
our soldiers. And I think you will find if you look at the 
history of some of the capability spinouts, that we have made 
those kinds of decisions on systems that have not measured up 
in the past.
    And, finally, the last part of our Brigade Combat Team 
modernization strategy is the Ground Combat Vehicle. We think 
this is critically important. It is designed to provide a 
versatile range of capabilities that include force protection, 
off-road mobility, urban operational mobility, and to contain 
the size, weight and power to carry the network and expanded 
capabilities that we need today and into the future.
    In closing, in support of the Army modernization, the Army 
has submitted a research development and acquisition budget 
request of about $32 billion for fiscal year 2011. We believe 
that this budget appropriately allocates resources between 
bridging advanced technologies for our soldiers currently in 
the fight and developing new technologies to bring the required 
capabilities to soldiers in the future. As such, we meet our 
leadership's intent of concurrently preparing our soldiers for 
success today and transforming to meet the demands of the 21st 
century.
    Mr. Chairman, Mr. Bartlett and members of the committee, on 
behalf of the soldiers and their families, we greatly 
appreciate the tremendous support we receive from this Congress 
and the American people. In order to successfully implement the 
plans we shared with you today, we urge your continued support.
    Providing all of America's sons and daughters who serve in 
our Army with the most capable equipment for the battles they 
are fighting today and are likely to face in the future are the 
responsibilities that the Army takes seriously and is committed 
to accomplishing. Thank you for your time. I will now be 
followed by Lieutenant General Phillips.
    [The joint prepared statement of General Lennox, General 
Phillips, and Dr. Markowitz can be found in the Appendix on 
page 54.]
    Mr. Smith. Thank you, General.
    General Phillips.

STATEMENT OF LT. GEN. WILLIAM N. PHILLIPS, USA, MILITARY DEPUTY 
    TO THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, 
                   TECHNOLOGY, AND LOGISTICS

    General Phillips. Chairman Smith, Congressman Bartlett, 
distinguished members of the subcommittee, I, too, am grateful 
for this opportunity to discuss the fiscal year 2011 
President's budget in Army acquisition and modernization 
programs.
    With this budget request, we are investing in the future 
force capabilities while enhancing the capabilities of our 
soldiers in the current fight. I am pleased to appear before 
you today with General Lennox and Dr. Markowitz. We are very 
grateful to the members of this subcommittee for what you have 
done to provide our Army and our soldiers the equipment that we 
have today that are in combat.
    If I could just reflect upon my most recent assignment, 
which was 11 months, a little over 11 months in Iraq and 
Afghanistan, serving beside our soldiers, they are amazing on 
the field of battle. And they are amazing for a number of 
reasons.
    Number one, the American people have entrusted us with 
their sons and daughters, their most precious assets. Secondly, 
this committee and the Congress and the American people have 
provided us the resources with which we can build and develop 
programs and put them in the hands of our soldiers.
    For those two things in particular, I have watched them 
operate on the field of battle, and I have been so impressed 
with how they operate. They truly are amazing, so thank you and 
the American people for entrusting us with those resources to 
be able to be successful. And we constantly strive in support 
of the American people to be good stewards of those resources.
    Sir, today is a great day for the Army and a great day for 
the Army Acquisition Corps. This morning at 1030 hours, the 
Under Secretary of the Army swore in Dr. Malcolm O'Neill, 
formerly Lieutenant General Malcolm O'Neill, as the Army 
Acquisition Executive and the Assistant Secretary of the Army 
for Acquisition, Logistics and Technology. He takes over from 
Mr. Dean Popps, who has served our Army so well over the last 
eight years. So, sir, it was an honor to welcome Dr. O'Neill to 
our team.
    Mr. Chairman, the Army has a comprehensive modernization 
plan, as articulated by General Lennox. With lessons learned 
from more than eight years of persistent conflict focused on 
future challenges and promising technology investments, we are 
pursuing a capabilities-based incremental modernization 
strategy.
    Number one, develop and incorporate new capabilities and 
technology. Modernize and capitalize existing equipment and 
reset and invest those that are no longer necessary for our 
formations. And number three, we will field and distribute 
capabilities in accordance with the Army's resource priorities 
and also the Army's force generation.
    I understand, Mr. Chairman, that there are several programs 
of interest to this committee, and with your permission I will 
briefly discuss their status.
    We have organized the combat formation in a modular 
construct focused on the Brigade Combat Team. General Lennox 
has stated the Brigade Combat Team modernization plan includes 
modernizing the network over time, rapidly developing and 
fielding a new Ground Combat Vehicle, and incrementally 
fielding capability package that best meet the needs of 
soldiers and units as they train and then get ready to deploy.
    Increment One of the Early Infantry Brigade Combat Team 
systems, including the network integration kit Class I unmanned 
aerial system, the small unmanned ground vehicles, and urban 
and tactical unattended ground sensors, have been approved by 
the Defense Acquisition Executive for low rate initial 
production.
    The Army released a request for a proposal for the 
technology development phase of the Ground Combat Vehicle in 
late February. It will be our first combat vehicle designed 
from the ground up to operate in an IED environment.
    With regard to the existing vehicles upgrades, the Army's 
combat platform modernization program is focused on 
standardizing the 31 heavy Brigade Combat Team sets with two 
variants of our dominant combat platforms. That is the M1A1 and 
A2 Abrams and the M2 Bradley fighting vehicles.
    The Stryker program received full rate production decision 
on 8 of 10 variants. This versatile and lethal vehicle can be 
deployed in trouble spots worldwide in all spectrums of 
operations.
    The Paladin Integrated Management Program (PIM), or Paladin 
PIM, is the Army's first fire support modernization effort for 
the Paladin howitzer to enhance the delivery of accurate and 
timely fires where and when needed. It is an important 
cornerstone of our modernization strategy.
    Modernization of our tactical wheeled vehicles is providing 
our soldiers with the best possible protection, payload and 
performance. At the heart of our plans is the Joint Light 
Tactical Vehicle (JLTV) with the Marines to replace the Humvee 
starting in about 2015.
    We will continue to procure and field the family of medium 
tactical vehicles to replace vehicles in the immediate fleet 
that are over 30 years old. Recapitalization of our family of 
heavy tactical vehicle fleet will focus on variants of the 
aging Heavy Expanded Mobile Tactical Truck, better known as the 
HEMTT, as well as incorporate much of MRAP into our future 
forces as they are released from current operations.
    On another matter of great importance, the Army is 
committed to continuing to improve our small arms capabilities. 
We are fielding a new semiautomatic sniper rifle, the M110, a 
new 40-millimeter grenade launcher, and developing a light 50-
millimeter machine gun.
    We are also taking a dual approach regarding the M4 to 
improve the current weapon system as we look forward to a new 
carbine requirement, as you mentioned in your opening comments, 
Mr. Chairman.
    We are also working to deliver the best ammunition to our 
warfighters while at the same time fostering environmental 
stewardship. The M855 A-1 cartridge designed for the M16 and M4 
family of weapons and the M249 squad automatic weapons meet 
both of these goals as a green program while providing 
consistent shot-to-shot performance against all targets. They 
will be available for fielding in June.
    Information is key to success on the battlefield, and our 
new radios will provide enhanced communication capabilities to 
our forces. The Joint Tactical Radio System will provide a 
mobile tactical radio communications network. The Ground Mobile 
Radio (GMR) will provide multi-channel operations within 
integrated global positioning system capability and the 
handheld manpack and small form fit program, which will 
provide, among several capabilities, a small, form fit radio 
for various ground sensors, unattended vehicles, and unmanned 
aerial vehicles.
    Our aviation platforms continue to meet tremendous 
challenges of today's combat environment. Continued 
modernization of our helicopter fleet--Black Hawks, Chinooks, 
Apaches--is absolutely vital to operations in Afghanistan and 
Iraq. And, sir, having flown in Iraq and Afghanistan in 
practically every aircraft that the Army is flying with today, 
they have performed magnificently--to date, about 3.7 million 
combat hours across both Iraq and Afghanistan.
    As General Lennox stated, we remain committed to the 
requirement for a manned armed aerial scout helicopter. A 
formal Analysis of Alternatives (AOA) is ongoing as we continue 
with upgrades of the Kiowa Warrior fleet. The Army is 
partnering with the Air Force and fully endorses the joint 
force theater lift effort.
    The light utility helicopter, or Lakota, continues to meet 
all cost, schedule and performance targets and has been fielded 
to the National Guard across 13 states to conduct disaster 
relief, counter drug operations, and institutional training 
missions as well as test and training centers for the Army.
    Army unmanned aircraft systems are vital capability for our 
deployed forces. Intelligence, surveillance and reconnaissance 
capabilities are significantly enhanced by platforms such as 
the Raven, Shadow, Constant Hawk, Persistent Threat Detection 
System, or PTDS, as well as the enhanced medium range 
reconnaissance and surveillance system which evolved from the 
Aerial Common Sensor program of a few years ago. Additionally, 
the Extended Range Multi-Purpose UAV system is also on the 
verge of providing us a tremendous capability on the field of 
battle.
    On another important issue, Mr. Chairman, we appreciate the 
support by the members of this subcommittee and Members of 
Congress as we work to rebuild the acquisition and contracting 
workforce to handle the increased workload in managing our 
acquisition programs as well as a number of contracted actions 
and contracted dollars, which in the last 15 years has 
increased by about 500 percent along with a subsequent 
reduction in the number of people.
    Along with the additional workforce personnel, we thank you 
for authorizing five additional general officers for 
acquisition. We have promoted three colonels to general officer 
as of this date. And most recently, I served as the commanding 
general of Joint Contracting Command Iraq and Afghanistan. And 
currently in Iraq and Afghanistan today, we have Brigadier 
General Camille Nichols, another Army general.
    So with your help and the help of the Office of the 
Secretary of Defense, we are working aggressively to reverse 
the years of decline in authorized strength levels and restore 
the skill level of our acquisition and contracting workforce to 
deal with the growing complexities of our business environment.
    At the same time, the Weapons Systems Acquisition Reform 
Act of 2009 is helping us to ensure that our programs are 
healthy and that all problems are identified and program 
adjustments made to them to keep them healthy. By building more 
discipline, oversight and transparency into the process, we are 
better able to provide services, deliver mature technologies, 
and rapidly procure the equipment that our warfighters require 
and deserve.
    Mr. Chairman and distinguished members of this Subcommittee 
of Air Land Forces, your deep and abiding commitment to our men 
and women in uniform is widely recognized throughout our ranks. 
We thank you for your continued support of the outstanding men 
and women of the United States Army and their families. Mr. 
Chairman, I look forward to your questions.
    [The joint prepared statement of General Phillips, General 
Lennox, and Dr. Markowitz can be found in the Appendix on page 
54.]
    Mr. Smith. Thank you very much.
    Dr. Markowitz. And if you could keep your comments 
relatively brief, I want to make sure we give members a chance 
to ask some questions. I think that has been a pretty good and 
thorough outline of what we are talking about. If we could keep 
it in sort of the five-minute range, that would be great. Thank 
you.

 STATEMENT OF DR. DAVID M. MARKOWITZ, DIRECTOR OF CAPABILITIES 
INTEGRATION, PRIORITIZATION, AND ANALYSIS AND TECHNICAL ADVISOR 
         TO THE DEPUTY CHIEF OF STAFF OF THE ARMY, G-3

    Dr. Markowitz. Yes, sir.
    Chairman Smith, Ranking Member Bartlett, distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you to discuss the Army's modernization program 
and requirements processes.
    My name is David Markowitz, and I am the Director of 
Capabilities Integration within the Army G-3. The directorate 
is responsible for the review, validation and approval of 
material requirements. Additionally, we recommend overall 
program priorities to Lieutenant General Thurman. As requested 
in your letter, I will briefly highlight important aspects of 
the requirements process for both current operational needs and 
long-term programs.
    Let me start first with operational needs statements, or 
ONSs. ONSs support the Chief of Staff of the Army's vision to 
build a versatile mix with tailorable and networked 
organizations. An ONS is a request from a commander in the 
field to headquarters Department of the Army for either 
existing equipment or new capabilities to meet unexpected 
mission demands.
    In 2009 the Department of the Army received or was 
processing approximately 2,500 ONSs, requests from commanders 
in the field asking for more than 6,000 separate types of 
equipment. The vast majority of these requests were for 
existing Army items.
    Joint Urgent Operational Needs Statements, or JUONSs, are 
similar to ONSs, except the request goes through joint 
channels. They are approved by the joint staff and assigned to 
a service or agency by the Office of the Secretary of Defense. 
There are far fewer JUONSs, but they are almost entirely for 
new capability development. The Department of the Army is 
currently working on roughly 10 JUONSs.
    To ensure the Army is providing the right capability at the 
right time, we have regular weekly meetings with theater that 
review, validate and source theater needs. Over the past two 
years, we have created a prioritization process to ensure that 
our limited resources are used in the most urgent demands.
    The process is timely by collapsing the requirements, 
resourcing the acquisition activities into a condensed 
synchronized effort. Based on lessons learned, the Army updated 
Army Regulation 71-9 this past December to codify these 
changes.
    The Army is also taking steps to assess the material that 
we have rapidly fielded to support the war. The Army set up the 
capability development for rapid transition process. Run by our 
Training and Doctrine Command, we obtain warfighter feedback, 
including assessments by the Army Test and Evaluation Command's 
reports, to make recommendations on what to do with the 
capability for the long-term.
    There are three types of recommendations: incorporate into 
a program of record, sustain only for the war effort, or 
terminate. Today, the Army has reviewed 452 new material 
capabilities with 10 percent recommended for transition to an 
acquisition program, 25 percent for termination, and the 
remainder to sustain for the war.
    As to long-term requirements, the Army is internalizing the 
Secretary of the Army and the Chief of Staff of the Army's 
guidance on implementing a cost culture within the Army. This 
closely aligns with the goals of the 2009 Weapons Systems 
Reforms Act.
    We are working with the Office of the Secretary of 
Defense's cost assessment and program evaluation agency on 
announcement of alternatives, guidance and implementation. We 
are also working with the acquisition community to ensure that 
requirements from major defense acquisition programs are 
reassessed annually to see if certain capabilities are causing 
large cost growth.
    Additionally, under the leadership of the Under Secretary 
of the Army and the Vice Chief of Staff of the Army, we are 
performing a series of capability portfolio reviews to set the 
context for modernization. This is a new endeavor recently 
begun this calendar year.
    We are holistically examining separate capabilities like 
tactical wheeled vehicles or precision munitions and making 
recommendations to revalidate, modify or terminate 
requirements. The Secretary of the Army has asked that after 
one year we assess our progress and make recommendations for 
institutionalizing this activity.
    Thank you, Mr. Chairman. That concludes my opening remarks, 
and I look forward to your questions.
    [The joint prepared statement of Dr. Markowitz, General 
Lennox, and General Phillips can be found in the Appendix on 
page 54.]
    Mr. Smith. Thank you very much, gentlemen. We will in the 
questions try to keep to the five-minute rule, even for me and 
the ranking member, because I want to give all members a 
chance. We will go through multiple rounds of questioning, if 
necessary, to make sure we get all members' questions, but do 
want to keep it moving as quickly as possible.
    And so, gentlemen, as you are answering a question, if you 
see the five-minute light is up, if you could try to--I mean, I 
don't want you to stop in mid-sentence or anything, but if you 
could try to wrap it up as quickly as possible, that would be 
appreciated.
    I am going to start asking about the EIBCT program. And I 
guess the question we have, and I know the statement that you 
are not going to field anything that isn't ready to go, and yet 
we don't at the moment have the tests that show that most of 
this is ready to go, so the first question is, you know, why 
not just delay it for a year?
    Why is there a budget request for procurement on this stuff 
in there? That kind of puts us back into the betting on the 
come problem that we had with Future Combat Systems. Why did 
you make that decision in this specific instance?
    General Phillips. Sir, great question. What we have learned 
from the FCS program throughout its years of development, what 
we wanted to do in coordination with OSD was to leverage our 
investment in FCS itself. So as we look forward to bringing our 
strategy for the capabilities packages that encompasses the 
EIBCT, we worked with OSD and developed a strategy at the 
direction of OSD, actually, to be able to field the capability 
as soon as possible.
    So we developed the capability packages, but we know that 
within those packages itself, each item may not be as mature as 
the other items. And as General Lennox said in his opening 
comment, we are not going to field anything that is not 
suitable, effective on the field of battle for our soldiers.
    Mr. Smith. But cutting through that, I think you are saying 
some of it is ready, some of it is not. You are going to buy 
what is ready. But is that actually the case? I mean, what are 
the pieces of it that have tested out that you are confident 
right now to buy?
    General Phillips. Sure, we have that test that we just did 
for the Limited User Test (LUT) last August, last summer, for 
the EIBCT pieces, the network integration kit, the Small 
Unmanned Ground Vehicles (SUG-Vs), the Tactical Unattended 
Ground Sensor (TUGS) and the Urban Unattended Ground Sensor 
(UUGS), there were some issues that----
    Mr. Smith. I think there are about maybe three people in 
this whole room who understand what you just said----
    General Phillips. Yes, sir.
    Mr. Smith [continuing]. But that is okay----
    General Phillips. The small unground----
    Mr. Smith. Go ahead, please.
    General Phillips. The small unground vehicle, the tactical 
and urban ground systems, the sensors that you would use inside 
a IBCT. We know there are issues with them through the limited 
user test that we just had.
    In conversation with Director, Operational Test and 
Evaluation (DOT&E) and GAO, we know that we have challenges 
that we face like, for instance, weight on some of the small 
unmanned ground sensors. Some of them are about almost twice 
the weight that they should be. We know that we have 
reliability challenges with some of those IBCT systems.
    But what those tests have allowed us to do is understand 
where those challenges are. And for us, we have to design or 
develop fixes into those systems. We know 94 percent of the 
fixes associated with the limited user test last September, and 
right now we are in the process of implementing those fixes, so 
when we go through the next fix and then the next session would 
be a test in August of another limited user test, we will hope 
to have 94 percent of those issues fixed.
    Mr. Smith. Well, just so you know, the committee's going to 
keep a careful eye on this, obviously. We are very early in the 
process. You know, it will be a while before we passed the 
final bill. But, you know, our inclusion of these items is 
going to depend on our confidence as well as yours about what 
is going to be fielded and what is not going to be fielded.
    The other question about some of these components, the new 
components, is some of them are very expensive, much more 
expensive than what they are replacing. And, you know, we have 
to sort of measure the capabilities versus cost. Are we really 
getting that much more capability?
    And one example that has been brought to my attention is 
the unmanned aerial system (UAS) for the EIBCT will cost 
$360,000 each when the Army's current similar system, the Raven 
UAV, costs $17,000. You know, basic question is first of all, 
do you accept those numbers as being roughly accurate? And if 
so, then basically what you are saying is this new thing is 
going to be 21 times better than the old thing, to use a 
technical term. Is that really the case?
    General Phillips. Sir, I would answer part of this and then 
let General Lennox take it from there.
    Mr. Smith. Yes.
    General Phillips. But you have to look at the maturity of 
the program as well when you compare one to the other and the 
capability that it provides. Raven is a very mature system. I 
think we fielded well over 800 of those in theater already 
flying today.
    And the Class I UAV is still in development as a part of 
the EIBCT, so when you are early in development, some of those 
systems are going to be expensive, but as you go forward into 
more toward full rate production, the costs of those systems 
are going to certainly be reduced. And then it is a measure. 
You hit it right on the head--the capability that it provides 
versus the cost, because that is the balance that you have to 
achieve.
    Mr. Smith. Just off the top, what is the increased 
capability here with this UAV versus the old one?
    General Phillips. Sir, the current Class I UAV weighs about 
17 pounds. It provides you a hover stare capability. It is not 
a fixed wing like the Raven, so you can hover over a certain 
location, and you can just get the stare down capability with 
that UAV. It is relatively easy to fly with soldiers. It has 
been tested in a test environment at Fort Benning, at Yuma and 
many instances.
    Soldiers like this system. It provides them great ISR 
capability, great situational awareness of what is happening on 
the battlefield, to fly over a building and to hover and give 
that stare down capability. Great situational awareness, sir.
    But there are issues with that system. One is the noise. It 
is a noisy system that we need to reduce the decibels on the 
field of battle. That was one of the issues that came out of 
the recent LUT is how can we reduce the acoustics associated 
with this vehicle.
    Mr. Smith. Okay.
    General, did you have anything quickly? I am out of time, 
but----
    General Lennox. Sir, I think General Phillips covered it.
    Mr. Smith. Okay. Great.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    My first question is a follow-up to my opening statement 
for either General Phillips or General Lennox. Could you 
comment on the Army's research and development funding in the 
near term and far term? Specifically, could you give us an idea 
of how the Army is leveraging capabilities from its science and 
technology budget?
    I would also like to ask you to provide the committee with 
an assessment of how the Army might use additional funds for 
research and development, if they were made available.
    General Lennox. Sir, thanks for your question. The Army has 
kept over the last several years research, development, test 
and evaluation funding at about--RDT&E funding at about the 
same level, so it has been consistent over the last couple of 
years.
    We think the amount that we are asking for in fiscal year 
2011 is adequate. We have had remarkable successes, as you know 
from your background, in the investments we made in Science and 
Technology (S&T) and some from Fort Detrick, as you are well 
aware, the investment in some of the bandages and work that the 
Medical Research Command did there in adding capabilities to 
help stop and staunch the loss of blood very quickly.
    There have been a number of systems and capabilities that 
we have taken to the battlefield that have come out of our S&T 
program, a lot of work on future armor capability. So it is 
very important to us, and we think we have about the right 
amount, sir.
    General Phillips. Sir, I would just add a couple of things. 
One is OSD has been working with us very closely, and they have 
designated the Army in a couple of areas to be able to focus on 
key things. One is focal plane array for Infrared (IR) high 
definition. We have the best sensors on the battlefield today. 
With this S&T investment of about $93 million, which brings up 
to about $160-or-so million this year in this kind of 
technology, it will ensure that we have the edge for our 
soldiers that are using the next generation of IR sensors.
    The other one that I would share with you, sir, would be 
force protection. Our investment out of that $1.9 billion that 
General Lennox just mentioned, the majority of that will go 
into force protection systems. The OSD has designated the Army 
as the deployment force protection task force lead, and we are 
going to invest about $170 million in that effort alone.
    Mr. Bartlett. Thank you.
    I have a second question for Dr. Markowitz or General 
Lennox. During our Air Force posture hearing, we had an 
opportunity to discuss the Joint Cargo Aircraft (JCA) program 
with General Schwartz. I still have some concerns about the 
ability to meet the original validated Army Joint Cargo 
Aircraft requirement, which I believe was for 78 planes.
    In a series of hearings, no one has said that that 
requirement has gone away. As you know, the Quadrennial Roles 
and Missions Review released last year clearly stated the 
option that provided most value to the joint force was to 
assign the C-27J to the Air Force and the Army. As you may 
know, the Army uses its plane. The Air Force has the plane. We 
now are going to have only 38 planes. There is a clearly 
validated use for that plane in this country by the Guard for 
national security issues.
    And my question is how are we going to meet the Army's 
originally validated needs of 78 planes, plus the stateside 
needs was only was only 38 planes?
    General Lennox. Sir, you are right. The actual Joint 
Requirements Oversight Council (JROC) approved number is for 75 
Joint Cargo Aircraft. There was a commitment for 78. The Army 
had said they would buy 54, and I believe the Air Force would 
buy the remainder. And currently, when that program transferred 
to the Air Force, I think it currently stands at about 38 
aircraft, so I think you have all the facts correct.
    We in the Army believe we have a requirement for the direct 
support role of fixed wing aircraft. We have had a recent pilot 
interact that has demonstrated that this has proved 
tremendously successful. There are two C-130s that the Air 
Force has dedicated to a Combat Aviation Brigade, proved 
tremendously successful, and we are waiting for the combatant 
commander in Afghanistan to ask for that capability.
    Mr. Bartlett. The original 78 planes--there has been no 
study after that to indicate that the Army requirement is in 
fact anything less than the original 75, 78 planes, correct?
    General Lennox. Not that I am aware of, sir.
    Mr. Bartlett. Thank you very much.
    Mr. Chairman, the Army continues to say they need 78 
planes. The program has been transferred to the Air Force, who 
didn't want the program. They now have only 38 planes. Clearly, 
the needs of the Army cannot be met with this, and this 
provides us with a continuing challenge. Thank you very much.
    Mr. Smith. Thank you very much.
    Before I call on Mr. Kissell, I just want to follow up 
briefly on something I asked earlier when we were talking about 
the cost of the new UAV. I get that as you build them over 
time, you have the possibility of the cost getting down. I 
would note that apparently we have committed to nine brigade 
sets of that UAV, and the average $260,000 cost is for all 
nine.
    So that is pretty far out down to the right before we start 
to see that coming back down, so I would be interested in--not 
now, but perhaps a better explanation for how that additional 
cost is justified, because that piece of it doesn't seem to 
help that much in this particular instance.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. And I would also like 
to join the ranking member in welcoming you to your new 
capacity with our committee as our chairman, looking forward to 
working with you.
    And, gentlemen, welcome to our committee. And I have two or 
three questions, and I really hadn't figured out who is best to 
answer them, so when I ask the question, whoever wants to jump 
in, I would appreciate it.
    We had a full committee hearing this morning. We had 
commanders for European Command, Africa Command and the Joint 
Forces Command. Two of the three commanders cited as one of 
their big concerns is cyber security. Just wondering what are 
we doing in technology and procurement and development to 
alleviate these concerns.
    General Lennox. I think we are looking at each other, 
because we don't have a very good answer for you, sir. But let 
me start. The Army is committed to the Department of Defense's 
stand up of Cyber Command, and we have recently signed up for 
Army Cyber Command. So we will be standing up a three-star 
headquarters dedicated to this effort.
    I think that I will have to take for the record, unless 
someone else has a better answer on the specific cyber kind of 
procurement things that we are doing to support that effort.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Kissell. I would appreciate that very much.
    It was mentioned in one of the opening remarks about the 
National Guard. I am from North Carolina, and our general, 
General Ingram, and who is head of our North Carolina Guard, 
was with me today, expressing some concerns as we bring into 
these Army aviation brigades that where is equipment going to 
come from to supply these additional demands?
    He had heard rumors along the line that we would either be 
taking the equipment from existing Guard capabilities or they 
would be shut off from new equipment until these brigades were, 
you know, fully supplied. I think you did mention that there 
would be, like, 11 or 12 percent increase in equipment going to 
the Guard. What can I tell General Ingram so he won't have to 
worry about this?
    General Lennox. First, sir, General Ingram has done a 
remarkable job with the North Carolina Guard, and their 
deployments and soldiers have done a fantastic job in combat. 
My compliments to you and to your state's National Guard team.
    We are standing up two Combat Aviation Brigades. The 12th 
Combat Aviation Brigade is a collection of currently existing 
active component units that we are putting together and 
fielding to deliver a capability to alleviate the heavy demand 
in combat of aviation requirements. That is happening right 
away out of current assets.
    The 13th Combat Aviation Brigade has been fully funded over 
the program to be fielded in fiscal year 2017. The Secretary of 
Defense has asked us to come back to see if there is a way to 
expedite fielding that capability either through early 
procurement or through a combination of pooling assets from 
both the active and reserve component forces that can get that 
capability for the Nation to deploy faster.
    It is our commitment to every Guard unit that we will 
modernize their equipment. And in the end, if there is a 
Secretary of Defense approved borrowing action under 1225.6, we 
will note that, and they will be reimbursed with planned and 
programmed aircraft.
    Mr. Kissell. So I can tell General Ingram that it is going 
to be okay.
    General Lennox. I believe so, sir.
    Mr. Kissell. Okay.
    Last question. We have from time to time people come to us 
with good ideas. And they are kind of research and development. 
I share the ranking member's concern that if we don't fund the 
R&D at a high level, that it is just very shortsighted.
    We have had people come to us with ideas, and these are 
very legitimate ideas on how to make body armor stronger and 
lighter in weight, a more of a classified nature of vehicle 
that the Army is looking for, and an idea that would help our 
equipment engines last longer. What do I tell these people? How 
should they proceed in getting these ideas listened to and for 
you to become aware of them so that you can be aware of these 
good ideas?
    General Phillips. Sir, that is a great question. And what I 
would ask is that they engage with us in the acquisition 
community. At various times for various systems, we will send 
out requests for information, and we will run industry 
conferences.
    And we have program executive offices (PEO) that exist all 
throughout our Army that manage programs. Well, today we manage 
over 700 programs. One of those is PEO Soldier that you 
mentioned about body armor. We are always looking for industry, 
to talk to industry and have them interface with us and to 
provide us their feedback.
    For GCV we held two industry conferences--Ground Combat 
Vehicle--two industry conferences where we got about, I think, 
about 40 or so, maybe more than that, white papers back from 
industry. We welcome industry's input into our processes, sir. 
And if you have someone in particular that you would like us to 
talk to, we would certainly be glad to chat with them.
    Mr. Kissell. We will follow up.
    And thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Smith. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today and thank 
you for your service.
    Talking about the M4, I just want to stick with that. If it 
is shown that we need a new weapon and that we are going to 
replace the M4 or the M16, the issue that I have, basically, is 
that Title 10 limits companies allowed to bid on critical small 
arms components for specified small arms, including the M4. You 
know this. There are three companies right now that are allowed 
to bid based on Title 10.
    One of those companies makes the Ma Deuce. The other two 
can't compete for small arms. Out of those two that are allowed 
to actually compete for small arms, one of those is a foreign 
company, a Belgian company. So there is only one American 
company that can compete with itself, I guess, being the one 
American company, if you want an American manufacturer for 
either the upgrade to the upper receiver of the M4, which we 
are thinking about doing, if needed, or for a brand-new 
replacement for it.
    Last year the National Defense Authorization Act (NDAA) 
again required a report on the small arms industrial base while 
also giving the Secretary of Defense the authority to expand, 
modify or change the companies in small arms production in the 
industrial base.
    I understand that in December the Army denied entry to one 
or more well-known domestic small arms companies, including the 
largest gunmaker in the entire nation. The largest gunmaker in 
America was excluded as a small arms option for the M4.
    Based on the changes made in the fiscal year 2010 NDAA to 
expand or modify the companies in the small arms production 
industrial base, can you explain why the Army is not embracing 
competition? That is my first question--two more to follow 
here.
    Have you urged Secretary Gates to modify or change the 
companies in the small arms production industrial base? And 
lastly, are you confident that by limiting competition, if your 
answer is no to those first two, are you confident that by 
limiting competition to these three companies based on a 
decade-old study, that our soldiers and Marines and pretty much 
everybody in every service, as we are all going to use the same 
thing pretty much, are you confident that they are getting the 
best bang for their buck and that the American taxpayers are 
getting the best bang for their buck, too?
    General Phillips. Congressman, thank you for your question 
and thank you for your service.
    A couple of points. The M4 is an extraordinary weapon 
today. We have continued to improve it. Over 400,000 have been 
fielded today. It performs extraordinarily well in theater. In 
my 11-plus months there, I heard one complaint, and it was from 
a division commander about the magazine on the M4.
    Mr. Hunter. Sir, I don't mean to interrupt. I like the M16 
and the M4. I have shot targets at 500 meters away in the, you 
know, prone position. I am a triple expert rifle, pistol. I 
like it, too. What I am saying is, if we have to upgrade it, if 
Congress or DOD or you deem that it is necessary, then what? 
Those are where my questions go here.
    General Phillips. Sir, got it. And our dual strategy, 
really, is to, number one, upgrade the M4 as we know it today. 
And we believe that we, do a full and open competition process, 
we will be able to upgrade the M4, which will add to the 
already 62 improvements that we have made over time to that 
weapon system.
    The other piece of the dual strategy is to go out with full 
and open competition for what might be the follow-on to an M4. 
And the capability development document is being drafted now.
    We think that the ammunition--or, I am sorry, the small 
arms industrial base is very robust and that there will be 
adequate competition there. And we know that in the previous 
National Defense Authorization Act that on the 31st of March of 
this year that the Secretary of Defense will have the authority 
to actually waive some of those requirements so we can go 
forward with full and open competition, sir.
    Mr. Hunter. Have you urged him to waive those requirements 
to allow more than one competitor into the open competition?
    General Phillips. Sir, we have not at this point. The study 
that you mentioned earlier in one of your comments is being 
prepared now within the Army. The reason it took a little bit 
of time is because we had to go out to about 14 different 
organizations that have a stake in the weapons systems that we 
are preparing. It wasn't an easy task just internal to the 
Army. We had to go out to get that information. And we should 
have that back to OSD near-term probably within the next 30 
days, sir.
    Mr. Hunter. Thank you, sir. And, you know, basically what 
we are looking at here is if you only have one competitor--it 
is a great company, by the way; it is a great rifle that we 
have now--but it is not competition if you only have one 
company competing for it.
    I don't think we ought to allow a foreign company also to 
be making the next carbine, if we choose to make it or to 
upgrade the one that we have now. I think it ought to be an 
American company, and I think we ought to do everything in our 
power to urge Secretary Gates, and your power as well, to let 
all of these great American small arms manufacturers into this 
fight. But thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. I am going to just 
make a few brief remarks, and then I am going to yield the 
balance of my time to Mr. Bartlett.
    JCA C-27--I am not particularly troubled by the fact that 
the Air Force has been at least given the maintenance, 
sustainment, modernization end of this, since Army just was 
fixated on contractor base services and doesn't really have the 
interest or capability to do depot work on something like this.
    The Air Force can do that. And I suppose the Air Force 
could have the platform as long as it is providing Army with 
the services that Army needs and in the way that Army needs 
those services provided.
    And the challenge that we had in Vietnam, and certainly 
history suggests it is not going to work real well if what we 
get now is what happened in Vietnam, is that where lift is 
concerned, at least, the Air Force has a strategic view and 
where this kind of lift is concerned, Army has a very tactical 
view. And that clash did not serve us well with--was it the 
Grizzly? I can't remember the platform in Vietnam.
    General Lennox. Caribou, sir.
    Mr. Marshall. Caribou? And ultimately, we concluded that 
Army had to have the platform.
    To what Mr. Bartlett previously said about requirements, I 
would simply add that the latest study I am aware of is 
Institute for Defense Analyses's (IDA) analysis of different 
mixes of lift, given different kinds of challenges. And if we 
believe that we are going to have these kinds of long-term, 
simmering conflicts in the future, IDA concluded that we didn't 
just need 78. We needed 98 of these things to be most cost-
effective across the board.
    So I hope Army is thinking about more than 38 in the future 
here, even if Air Force happens to have the platform, you know, 
temporarily or permanently, because it seems to me Army's view 
is more than 38, based on all Army has said thus far. And then 
IDA chimes in and, at least for the conflicts that it looks 
like we are going to be in for a little while, says it should 
be even more than that.
    And with that, let me just transfer it back to Mr. 
Bartlett.
    Mr. Bartlett. I thank the gentleman very much for yielding. 
I would first like to identify myself with the concerns of Mr. 
Hunter. You can't have a full and open competition if you have 
excluded many of the potential players. I have no idea why we 
have done this.
    Back to the Joint Cargo Aircraft, specifically I would like 
to know how the Army is currently meeting this requirement in 
Operation Enduring Freedom (OEF). For example, what is the 
impact to the sustainment and availability of the CH-47? I 
understand that because we don't have enough of the Joint Cargo 
Aircraft, we are now using helicopters and commercial rented, 
leased aircraft to meet these needs. Is that correct?
    General Lennox. Sir, it is correct. There are record uses 
of the CH-47 in Afghanistan. It is a climate and an area that 
lends itself to helicopters, but there are record uses of the 
CH-47, and that is putting quite a burden on the fleet. And 
there is contract aircraft being used to the tune of about $8 
million a month, I believe. But I will follow up specifics on 
the amounts.
    I think it is up to the combatant commander to some extent, 
so I don't want to necessarily say that this is the right 
solution or it is not the right solution. The combatant 
commander gets a chance to say, request what kind of airport 
support they need based on what they see in their theater.
    Mr. Bartlett. But when he runs out of Joint Cargo Aircraft, 
then he has to use something else, correct?
    General Lennox. Sir, right now there are C-130s being used. 
I don't think we have yet deployed our first Joint Cargo 
Aircraft to Afghanistan. I think that won't happen until next 
year. And we are using a combination today of C-130s in small 
numbers and contract aircraft and relying on the CH-47 Chinook.
    Mr. Bartlett. But aren't many of the airstrips there pretty 
short, so that we are limited in where we can use the 130?
    General Lennox. I am not an expert, sir, on the C-130 and 
the airstrip constraints there. I do know that there was 
infrastructure constraints there in terms of how much room 
there is on the ground. And I do think that affects how many C-
130s you can bring into theater.
    Mr. Bartlett. Yes, it is my understanding that in 
Afghanistan the Joint Cargo Aircraft is even more essential 
because of this infrastructure availability. Thank you very 
much.
    Thank you, Mr. Chairman.
    And thank you for yielding, sir.
    Mr. Smith. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I understand that we are going to have a hearing, upcoming 
hearing, Seapower Expeditionary Forces Subcommittee, where we 
will be discussing force protection issues, but since the Army 
has the preponderance of folks on the ground, I would like to 
ask some of your views in terms of modernization.
    First one would be the helmet. I understand that our 
current Kevlar helmet does not protect against 7.62 mm. And I 
wonder if you could first address what is being done there.
    General Lennox. Sir, I would like to not talk about the 
specifics of what the helmet can and cannot do. We are looking 
at a more capable version of the helmet in concert with the 
Marine Corps. The initial effort, I understand, has run into 
some challenges in terms of meeting those requirements, so it 
has been delayed a little bit. But the Army is after providing 
at the same weight, so we don't add weight to the soldier load, 
a more capable helmet.
    Mr. Coffman. Where are we at right now in terms of reducing 
the load requirement in terms of the protective vest?
    General Lennox. Sir, we made substantial requirements since 
I testified before this committee last year. The IOTV itself, 
the improved outer tactical vest, is lower in weight than the 
earlier version of the outer tactical vest by, I think, about 
three pounds.
    The plate carriers that are designed specifically for 
soldiers to wear in high altitudes in eastern Afghanistan, for 
example, dismounted soldiers that will be climbing hills, that 
is about six pounds lighter. And we have fielded those now in 
substantial numbers.
    In addition, we have done things like improve the boots, 
improve the vest, and improve some of the machine gun weight. 
So we are trying everything we can to take some of that weight 
off the soldiers.
    General Phillips. Sir, the only thing I would add to that 
is that we are trying to give the commander options as well, so 
depending on what kind of environment they are in. Obviously, 
they are in combat. You want the maximum number of protection. 
But if they are back on a forward operating base, then you 
might need a lesser level of protection, so you might go from 
31 pounds, pull a couple of plates out and go down to 25 
pounds.
    Mr. Coffman. Would that be taking out the side Small Arms 
Protective Insert (SAPI) plates? Very well.
    In terms of we take casualties through snipers, and the 
preponderance of casualties, I think, in Afghanistan are 
through snipers and through IEDs, roadside bombs, can you tell 
me--in terms of modernization we were talking about various ISR 
platforms. Is there anything on the horizon to provide better 
force protection for our folks on the--for our soldiers and 
Marines on the ground?
    General Lennox. Sir, the Army is committed to tackling the 
common IED problem where we do receive most of our casualties. 
And as you know, there is no panacea. We have recently fielded 
the MRAP ATV vehicle to provide enhanced protection and off-
road capability, thanks to the help of Congress and the 
Department of Defense.
    We have fielded a number of efforts to enhance ISR. Task 
Force Observe, Detect, Identify, and Neutralize (ODIN)--
Afghanistan, which was very effective in Iraq, is now fielded 
in Afghanistan. A number of different ISR platforms are being 
fielded. Human terrain teams are out there trying to make a 
difference, and ground clearance vehicles have been taken from 
Iraq, where the instances are lower, and moved to Afghanistan. 
So there is a full court press in a number of different ways. 
It has not solved the problem, but I think we have made 
dramatic improvements.
    General Phillips. Sir, I would add to that that we have 
fielded systems like the Persistent Threat Detection System. 
There are six of those in Afghanistan. I have watched them 
personally operate in Iraq inside the headquarters, and that 
gives a forward operating base a tremendous capability to 
protect against threats that exist within a few kilometers of 
the forward operating base (FOB) itself.
    You mentioned sniper. As a part of our investment in S&T, 
we are going after trying to see if we can defeat the sniper by 
acoustics, and some of those are classified programs----
    Mr. Coffman. Sure.
    General Phillips [continuing]. That we are going to push 
forward to try to go after that threat in particular.
    Mr. Coffman. Thank you, I----
    Yes, did you have a----
    Dr. Markowitz. Yes, sir, it is just that we have worked 
very closely with OSD. They have had a special task force on 
counter IED activities. We work closely with them and with 
theater.
    There is a large list of new and improved capabilities that 
we are working, all the ranging from more persistent forms of 
stare to different types of explosive detections, chemical 
sniffers, to different types of Tactics, Techniques, and 
Procedures (TTPs) and contractors in the field to kind of help 
the linguists and those other areas of identifying and 
targeting the IED network. So we are looking across the full 
range, sir.
    Mr. Coffman. Mr. Chairman, if I could, one comment? And 
that is that I think we have learned one thing, and we cannot 
up-armor ourselves out of this, you know, in terms of 
protecting our soldiers and Marines on the ground. And so I 
think really we obviously need to focus on ISR capabilities. 
Every time we increase, you know, the weight of our vehicles, 
they increase the size of their explosives.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here and thank you for your 
efforts in modernization.
    And I appreciate so much the service of Congressman 
Coffman. He served, and so as he discusses the issues, he is 
telling you from his experience in the combat theaters. So I 
appreciate him so much.
    On the other hand, I just went through training, and that 
is at the National Training Center. It was an extraordinary 
experience 10 years ago, and I tell you this as a compliment. 
All of the equipment I have is in a museum, and so from the 
boot to the helmet. And so I just want to thank you all for 
expediting.
    And I want to join with Mr. Kissell that as people bring 
innovations to us, I know we want to get these to you as 
quickly as possible. And in particular, I have been very 
intrigued at initiatives brought to my office concerning fire 
suppression capability. And that concerns me so much with, as 
indicated by the munitions, but virtually anything to reduce 
the possibility of just the heinous nature of fire.
    Could any of you comment on what is the latest on that? And 
what can we do to help you?
    General Phillips. Sir, I share your concerns about that, 
and my old boss, who is Dr. Markowitz's boss, is Lieutenant 
General Thurman, and he underscored enough that we have to do 
everything possible to limit the impact of fire and the damage 
that it does to our soldiers.
    On each vehicle there are multiple ways of addressing it to 
aim at protecting soldiers. First and foremost is the fielding 
of the fire resistant uniform. We have done that in the old 
version. As we are about to produce another uniform, fire 
resistant will be the very first thing to go into it.
    We are experimenting with different kinds of limits to 
protect the soldiers now so that--they wouldn't wear the old 
hoods; too heavy, too hot--so we are experimenting with lighter 
variants.
    On each vehicle there are about three different ways to 
suppress fire. First is the optical sensor that senses fire and 
automatically shuts off the fuel and reacts. Because of 
complaints, comments, lessons learned from theater, we have 
added external fuel cutoff valves that a first responder at the 
scene can pull this, if the fuel has not been cut off, and cut 
the fuel out.
    And then as we build our vehicles, and especially our heavy 
trucks, we have added things like blankets and fire resistant 
coatings around the fuel tanks. And those are all some of the 
things that we have done. I think we have done some extensive 
experimentation. There have been people with ideas. I think we 
have looked at every idea that has come forward, and we welcome 
an opportunity to do that again, sir.
    Mr. Wilson. And how would we, if people bring innovations 
to us, how could we expedite that--not show favoritism as much 
as to promote the protection for our troops?
    General Phillips. Sir, a couple of ways, and I will go back 
to my earlier comments. We have various program executive 
offices. Offices that may have responsibility for that: 
Aviation in Huntsville for aviation systems, Tactical Wheeled 
Vehicles up in Warren. We have the Rapid Equipping Force that 
would welcome any industry partner who has an idea that could 
bring that forward.
    We welcome those ideas, because as General Lennox said, 
what we do today is not enough. We must do better tomorrow to 
protect our soldiers and give them the best equipment. And that 
includes fire protection. As an aviator for 30 years flying in 
helicopters, you sort of grow up thinking about fire, because 
helicopters, if they crash, they are probably going to burn.
    We have the same kind of mentality now, I believe, in our 
tactical wheeled systems and our other systems, and we need to 
continue to grow the same kind of protection inside of them. We 
welcome industry's ideas. If we can help with anyone in 
particular, sir, we will gladly engage.
    General Lennox. Send them our way, sir. We will get them to 
the right people.
    Mr. Wilson. Well, and I appreciate that. And it is not just 
for me. I obviously would want it for every Member of Congress 
as people bring in innovations to us.
    And since I have only got 30 seconds, I also want to thank 
you all for promoting unmanned aerial vehicles. I say this as a 
parent. I had two sons serve in Iraq, and I always hoped that 
there was a UAV overhead. And so the technology that has been 
promoted and presented for our troops, we as American citizens 
appreciate that, and I only want more, so for our troops.
    Thank you very much. I yield my time.
    Mr. Smith. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, I want to just thank all of our witnesses and 
especially thank you for your service. And the work you do is 
so important. As Congressman Wilson just said, what you are 
doing truly is about the safety of our troops on the ground and 
those in uniform. You, both generals, you certainly appreciate 
that more than I can.
    On this specific follow-up to Mr. Kissell and Mr. Wilson, 
if it is possible, because I think we all have that opportunity 
where an industry in our districts comes to us and says, ``Hey, 
we have got a great new idea, state-of-the-art,'' if it is 
possible for the record back to the committee to share in your 
offices who would be the right person or person and so we all 
have that, and then we can just direct.
    That would be wonderful with my district, central 
Pennsylvania, heavy manufacturing base and a long history of 
support, industrial, military industrial, BAE Systems, General 
Dynamics. Going way back, my brother, who runs forklift at 
Harley Davidson, when he started there he was on the bomb line 
at Harley Davidson. Not many people knew there were bombs 
casings being made in the same factory as bikes, but that has 
now moved on elsewhere.
    The specific question--Mr. Hunter kind of touched on the M4 
issue pretty in detail, and Roscoe, Mr. Bartlett, followed up 
on the importance of that competition being healthy, engaged--
is there any more detail on the specific timeframe of the 
upgrades versus the Request for Proposals (RFP) for the new 
version, or the, you know, the advanced, you know, next stage, 
where we stand on that?
    General Phillips. Sir, we expect in the next maybe up to 60 
days or so, but within the next 60 days, we anticipate that we 
will get the RFP out for the upgrade to the M4 carbine, the 
upgrade competition.
    I think when we went out for a Request for Information 
(RFI), we got over 20 responses back from industry, so we are 
pretty confident that we have the capability out there with a 
robust industrial base, that we will be able to accomplish the 
upgrades that we want for the----
    Now I will transition to the actual competition for 
another, the follow-on, the next generation, per se. And that 
critical--or that capability development document is still 
going forward to the Joint Requirements and Oversight Council. 
We would like to get it out this fiscal year, but I can't 
commit to you that we will be able to do that until we get the 
requirements through the process to OSD and vetted. And then we 
will get the RFP on the street as soon as possible.
    If I could also state, we want full and open competition 
for this new system, so that is what we will go forward with 
and that is what we will present to OSD as well, sir.
    Mr. Platts. Okay. I appreciate that and the emphasis on 
full and open, and probably goes without saying that we got 
great American manufacturers here that--full and open so 
American jobs are created as we go forward with that new 
version.
    And did I understand correctly that one of the challenges 
has been that 14 different entities--it is not just the Army, 
but who you are partnering with in the other branches and that 
use the same weapons platform?
    General Phillips. Sir, many, many services, Special 
Operations Command (SOCOM), Marines, others use our weapons. 
And a lot of the systems that we buy are used by the other 
services. Another example away from small arms, but ammunition, 
single manager for conventional ammunition is PEO Ammunition at 
Picatinny Arsenal. So our Army program executive office buys 
bombs and bullets and other ammunition systems for the other 
services.
    So many of the requirements that we have today that we have 
worked within our acquisition process are actually borne joint 
before the requirement is ever approved. I hope that answers 
your question, sir.
    Mr. Platts. Thank you. And just a final comment on the M4. 
It is not the 7.62 mm, but my 13-year-old's Christmas present 
that he was just hoping for under the tree was the .22 caliber 
version of the M4 that does shoot wonderfully. We target shoot 
a lot, and so another vote of confidence in the M4--different 
caliber, but a great weapon.
    So appreciate the advancements that you are doing and 
ultimately how that does translate to the men and women out 
there in harm's way, us doing everything we can. And my thanks, 
if you can convey back to your staffs, both civilian and 
uniformed, in the important work you are doing on that 
acquisition and research development and all of that. It is so 
important to protecting our heroes out there, so----
    General Phillips. Sir, you bet. Will do.
    Mr. Platts. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Mr. Smith. Thank you.
    Actually, I will follow up on that and ask what is sort of 
the--what I think the logical is here, that if the M4 is 
performing so well, why are we having a competition to go out 
and try to build a new rifle? And as I understand it, you are 
also looking at ways to update the current M4. So I am worried 
that this has been sort of--it was pushed a little bit 
politically, because there were some stories about the M4 not 
performing well.
    And to your credit, to the Army's credit, now, you did a 
thorough investigation of whether or not that was happening. 
And the answer that seemed to come back was that, no, it is not 
happening, that, you know, every weapon that we are going to 
put out there could, you know, potentially it won't perform 
perfectly. There will be problems.
    But relative to any, you know, comparable study of the 
effectiveness, the M4 is, as Mr. Hunter, who has operated it, 
pointed out, it works. And yet after all that, the result is we 
are going through, you know, what is going to be a somewhat 
costly study to try to look at an alternative. And I agree with 
the comments of my colleagues about if we go through that 
process, we do want to make it as open to competition as 
possible. My question is why are we going through that process?
    General Lennox. Sir, I think the Secretary of the Army 
decided about this time last year to commit to a full and open 
competition as a result of some of the concerns that you 
mentioned. The current system can compete against that, so we 
think that the outcome of this, you know, the M4 was stand on 
its own or not, or it might encourage innovation so something 
better could come from it, so----
    Mr. Smith. So it is possible that you go through this 
process analysis of alternatives, analysis of ways to retrofit 
the existing M4 and you say, ``You know what? We got what we 
want. We are going to stick with it.''
    Okay. That is helpful.
    General Lennox. Absolutely, sir.
    Mr. Smith. That definitely answers that piece of the 
question.
    I had mentioned in my opening statement about the backlog 
of trucks that are completed, but not being shipped where they 
are supposed to go. Could you talk a little bit about that?
    General Lennox. Yes, sir. There are about 5,000 medium 
tactical vehicles now at a plant in San Antonio awaiting 
shipment. Most of those came about because as the truck was 
being developed, we asked for an armored cab. And we did our 
testing simultaneous with production, so we discovered things 
in the testing that then had to go back and be modified in the 
truck before it can be accepted, so----
    Mr. Smith. Trucks aren't actually--they are not ready.
    General Lennox. They are not ready. Those are not ready.
    Mr. Smith. Okay.
    General Lennox. We have heavy trucks. We have about 14 
heavy trucks that also have to undergo some modification, minor 
modifications before they are accepted. They all have 
distribution instructions so that the minute they are ready and 
accepted by the Program Manager (PM), they are capable of being 
shipped.
    Mr. Smith. Okay. And just could you walk us a little bit 
through in more detail the Stryker decision on, you know, 
upgrading them, you know, to making them, basically up-armor 
them so they can survive blasts, if they happen to come across 
one?
    And specifically, one of the questions that in talking to a 
number of people about this I have not had 100 percent 
clarified is if we decide to go with this double-V format--
personally, as a proud University of Washington graduate, I 
think they should have called it a W but, you know, nothing is 
perfect--if they do in fact do that, is it possible--and I 
think in speaking with you gentlemen, I think you said it 
wasn't--to put that new hull on the existing Strykers?
    Or would it have to be simply, okay, we are going to change 
the Stryker going forward? I mean, that is one of the big 
questions I have about this proposal.
    General Lennox. Yes, sir, you have got it exactly right. It 
would require a completely new hull, so it is a new production 
vehicle.
    Mr. Smith. You could not put it on the existing----
    General Lennox. You cannot retrofit it, sir. I think they 
have tried to do some of that, and they found out that the 
welding--you don't sustain the same force protection when you 
do it.
    I would like to compliment the members on their 
encouragement of innovation and ideas. GD is the one--General 
Dynamics Land System actually came up with this idea for the 
double-V shaped hull, brought it to us. And that was in 
January, and now this is March, and I believe the Secretary of 
the Army or Assistant Secretary of the Army for Acquisition, 
Logistics and Technology has sent this forward to OSD.
    Our goal is to produce the test vehicles. If they work, we 
have one brigade set of vehicles that we sent to Afghanistan 
and put it in the hands of our soldiers, sir.
    Mr. Smith. And that is the goal of this committee is, you 
know, as I mentioned in my opening comments is the Stryker is 
great in many ways. If there is a way to make it more 
survivable and better protect our soldiers, you know, on our 
committee we want to get those out there as quickly as 
possible, so we want to work on that.
    I did have a--I will ask just one more question and see if 
any more members have. Could you talk about the Humvee 
recapitalization program a little bit, what your plans are, 
because I understand your plan is not to build any new Humvees, 
but there are looks--you are looking at ways to update the ones 
that we have? Can you walk us through what your plans are on 
that?
    General Lennox. Yes, sir. The Army has met its acquisition 
objective on Humvees, so we have actually accelerated stopping 
the buying of Humvees a couple of years early, somewhat 
influenced by the fact that in theater commanders are reluctant 
to let soldiers go out because of vulnerability of the Humvee. 
We have----
    Mr. Smith. They are relying more on the Stryker and the 
MRAP. Is that----
    General Lennox. Yes, sir. Exactly.
    Mr. Smith. Okay.
    General Lennox. We have in fact requested funding in the 
2011 OCO bill to start a recap program for Humvees. We have 
currently a recap program that is about to end at several of 
our depots. So what the Army is wrestling with now is how to 
bridge the capability between the ending of that program this 
year, maybe early next year, and the 2011 funding that we are 
requesting.
    Our plan is to recap some of the oldest Humvees and make 
sure that we bring them up to a capability where they are 
useful until we can bridge them into the JLTV of the future.
    General Phillips. Sir, if I could add just to that very 
quickly, we are going to issue the--really, the last order for 
Army Humvees this month to AM General. And that is going to 
happen actually probably in the next few days. However, on the 
horizon, our emerging requirements from other services, we have 
over 150,000 Humvees operating in the Army today, other 
services, Special Operations Command, foreign military sales.
    So what we know that are emerging requirements on the 
horizon will probably keep AM General and producing new Humvees 
probably through the first couple of months of fiscal year 2013 
not through Army orders, but through Foreign Military Sales 
(FMS) and other services.
    Mr. Smith. I would be really curious to pursue that. And I 
am way over time here, but to find out, you know, if the 
Humvees aren't actually being used, and you mentioned a couple 
of other areas where they might be, you know, building more of 
them, recapitalizing them, I mean if we are doing that on a 
program the military is reluctant to use, I would really want 
to look closely at the wisdom of pursuing that. So we will 
follow up on that more.
    Sorry--just turned myself off.
    I do want to get the second panel up here, but I also want 
to respect members. I am not going around to everybody, but I 
will give Mr. Bartlett a chance to ask further questions, if he 
has them, and I will just sort of ask if any of the other 
members have anything for the good of the order they want to 
add to this panel.
    Mr. Bartlett. I just have one comment, Mr. Chairman. It was 
fairly obvious, I think, to almost everybody for a number of 
years that Future Combat Systems was in real trouble. And, you 
know, we have to find some way to pull the plug earlier before 
we spend extra billions and billions of dollars. I hope that 
somebody is looking at this as a model on how we can do better 
in the future. Thank you.
    Mr. Smith. An outstanding point. Thank you.
    Any other members have anything further for this panel?
    Mr. Marshall.
    Mr. Marshall. First, I apologize. Thank you for service. 
And secondly, to just chime in with Mr. Bartlett, we ought to 
know that a proposed weapons system is in trouble when we 
cannot explain it in a way that, you know, normal Members of 
Congress can understand.
    And the Future Combat Systems was this evolving thing that 
nobody ever really understood. We just shouldn't even come 
forward with things that we can't present with some 
specificity. It is really unfortunate, because we did waste an 
awful lot of money trying to pursue that before it got killed.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Any other members' comments?
    Well, thank you very much. Appreciate your service and your 
testimony. And we look forward to working with you on all these 
very, very important issues.
    With that, we will go to our next panel, Dr. Michael 
Gilmore and Mr. Michael Sullivan. And we will take a brief 
break here while we are waiting for people to change positions.
    Mr. Smith. Looks like we are about ready to go. I will give 
you gentlemen another extra minute there to give folks a chance 
to take their seats.
    Thank you very much. We have introduced our witnesses 
earlier, but I would do it one more time. Dr. J. Michael 
Gilmore, who is the Director, Operational Test and Evaluation 
Office of the Secretary of Defense, and Mr. Michael J. 
Sullivan, Government Accountability Office, Director of 
Acquisition and Sourcing.
    And, Dr. Gilmore, my understanding is that you are going to 
go first. You may proceed.

STATEMENT OF DR. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL TEST 
       AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Thank you. Thank you, Mr. Chairman and members 
of the committee.
    At your request I am here today to discuss test planning 
and test results for the systems composing Increment One of the 
Early Infantry Brigade Combat Team, or EIBCT, as I will refer 
to it, as well as test planning results for selected components 
of the Joint Tactical Radio System, or JTRS program, as well as 
results from testing of the Army's Extended Range Multi-Purpose 
Unmanned Aerial Vehicle System, or ERMP. So I will just go 
through those in turn.
    Beginning first with the EIBCT, the Army conducted what 
they called a limited user test, which is a test under fairly 
operationally realistic conditions.
    Mr. Smith. I am sorry. I forgot to do this with the first 
panel as well. You have submitted statements for the record. 
Those statements will be read into the record, and you don't 
have to read the whole thing. We will put it into the record. 
You summarize as best you see fit. Thank you.
    Dr. Gilmore. Okay. And that is what I am doing. I am not 
planning on reading all of that statement that I submitted.
    The Army conducted a limited user test of the EIBCT during 
August through September of 2009 at Fort Bliss. This was the 
first test in an operationally realistic environment of the 
components of the EIBCT system. It was a force-on-force test 
consisting of an infantry company and a scout platoon equipped 
with all of the EIBCT systems--and I will explain more of what 
they were individually--executing missions against an opposing 
threat force.
    And then also there is the non-line of sight launch system 
(NLOS-LS), which consists of rockets with a capability to 
attack moving and stationary targets, mostly vehicles, up to a 
range of 40 kilometers. And there was actual live firing under 
operationally realistic conditions, a test done of that system 
in January and February of this year.
    And so based on the results of those tests, as well as 
developmental testing that preceded those tests, my assessment 
is that each of the EIBCT systems requires further development 
prior to conducting initial operational test and evaluation, 
which under current schedules would take place in fiscal year 
2011.
    And all of the systems have notable performance 
deficiencies, and the demonstrator liability for each of the 
systems falls below the Army's requirements, and in many 
instances well below the Army's requirements.
    Now, taking the individual systems, the non-line of sight 
launch system, or NLOS-LS, requires further developmental and 
operational flight testing to demonstrate improved reliability 
and the required performance of the precision attack missiles 
infrared seeker.
    During a recently conducted flight test under operationally 
realistic conditions, two of six missiles fired achieved target 
hits, and four missed their targets. The reason for one of the 
failures has been identified fairly definitively. The Army has 
a pretty good idea of what led to two of the other failures. 
And then the last failure, the root cause is still under 
investigation.
    But testing has demonstrated NLOS-LS is making progress in 
some areas. The missile warhead can kill armored vehicles when 
it hits vulnerable areas. And missiles using what is called the 
laser designate mode when a laser is shined on a target and the 
seeker in the missile tries to hit that spot on the target, in 
that mode there has been demonstrated success where five of 
seven targets have been hit in both operational and 
developmental testing.
    And in a limited user test that was conducted in 2009--that 
was before this most recent flight testing--where the operation 
of NLOS-LS with simulated, it was demonstrated to be 
interoperable with the Army's fire support network and in those 
simulated engagements was effective in processing electronic 
fire commands and in engaging enemy targets. But those were 
simulations.
    As far as the Class I Unmanned Aerial System is concerned--
that is the air vehicle with an electro-optical and infra-red 
sensor that can be used to observe enemy movements--that system 
meets most of the Army's requirements for air vehicle flight 
and sensor performance. And it was used extensively during the 
recently conducted limited user test, the one that was 
conducted last year.
    However, it suffers from poor reliability, and it is also, 
as General Phillips noted, noisy. It can be heard from a fair 
number of kilometers away. It also can be spotted from a fair 
number of kilometers away. That is a double-edged sword. 
Sometimes that is actually good. In the testing it was observed 
to actually scare some of the opposing force away. It made them 
want to take cover, but in general it is a problem.
    Because it was unreliable, that UAS, that unmanned aerial 
system, was not employed as the backpackable company and 
platoon level asset that was envisioned by the Army, and that 
is a potential problem, because the UAS lacks the range to be 
employed regularly in combat as it was in the test.
    As far as the small unmanned ground vehicle is concerned, 
the SUG-V, it demonstrated a capability to remotely investigate 
potential threats. However, the range over which it can be 
operated, which is supposed to be on the order of a kilometer, 
in the test was demonstrated to be much shorter, on the order 
of 50 to 75 meters when there were a lot of buildings around, 
and on the order of 100 meters or so in more open terrain.
    That is a problem, because it exposes the operators to 
hostile fire and identification. And in fact, a number of the 
operators in the limited user test were evaluated as being 
killed, because they were exposed.
    Both the urban unattended ground sensor, the UUGS, and the 
tactical unattended ground sensor, the TUGS, demonstrated 
little contribution to unit situational awareness. The images 
they collected were often blank or blurry and provided little 
actionable intelligence, and very few of the images were sent 
forward to higher echelons of command and beyond the platoon 
and company level.
    As far as the network integration kit is concerned, it is 
composed of computers and in particular the ground mobile radio 
that is part of the JTRS system. That has demonstrated a 
capability to receive sensor data and pass messages, and still 
images over the Army's current battle command network, but it 
is falling well short of the Army's reliability requirements, 
and soldiers report that it is very difficult to use.
    Also, its ability to pass information securely and reliably 
within a network composed of many nodes is yet to be 
demonstrated. And in fact, some of the testing that has been 
done demonstrates that it has problems forming a 30-node 
network.
    According to the Army's Test and Evaluation Command, the 
greatest reliability likely to be achieved without substantial 
redesign for the network integration kit, the two sensors and 
the small and ground vehicle, as well as the Class I UAS, is 
below the required reliability for each system. So if the 
maximum reliability that you can get by fixing without major 
redesign is below the required reliability, that means, then, 
an extensive redesign would be needed to achieve the required 
reliability.
    Finally, the Army will execute a second limited user test 
of all the systems during August through September of this 
year, and this will be an opportunity to assess the fixes that 
the Army is now identifying. Some of the changes that are being 
made to systems that were mentioned by General Phillips, I 
think, were identified before these tests, the limited user 
tests were done.
    The Army is in the process of doing production 
qualification and other testing of the systems that presumably 
will surface additional improvements and changes that have to 
be made. It is going to be challenging to get all of those 
changes in so that we can test production representative 
equipment in this upcoming limited user test.
    That is the goal at this point, and then, of course, the 
initial operational test that is supposed to take place next 
year. We also want to test production representative equipment 
with all the changes incorporated.
    As far as the JTRS, ground mobile radio or GMR, and the 
handheld manpacks small form factor or HMS radios are 
concerned, those programs are working at a complete system 
development prior to testing in an operational environment 
scheduled for November of 2010, this year.
    But these tests are dependent upon the success of the 
developmental testing that is ongoing, the development of 
supporting waveforms, how the radios actually transmit 
information, and network management tools that is how the 
radios are formed into a network and how that network is 
managed, and the completion of other requirements, including 
radio network architectures that means which units will have 
the radios and which units will communicate with one another, 
and then plans for managing the network. So there is a lot of 
work that needs to be done for those tests to be executed 
correctly.
    The rifleman radio, which is part of the HMS program, 
conducted a limited user test in April 2009 that highlighted 
deficiencies in reliability, battery life range, and also what 
we call an immature concept of operations. The soldiers 
basically had a hard time figuring out how to use the radios to 
maximum advantage.
    That radio, the rifleman radio, reliability battery life 
and transmission range were well below user requirements by 
factors of two to four. There is a new version of that, 
upgraded version of that radio in development, which is 
supposed to address many of those problems, but we haven't 
tested it yet.
    The program will conduct a series of tests from April 
through June of this year to verify correction of deficiencies 
identified in this limited user test, and the results of these 
tests will support an acquisition review in August of this 
year, and the rifleman radio initial operational test in 
November of 2010.
    Manpack radio development testing is being conducted, 
leading to a limited user test in November of 2010, so that 
testing for a number of these radios is supposed to sort of 
come together late this year. But completion of the planning 
for that test again awaits user requirements, including network 
management plans.
    The ground mobile radio, or GMR, is experiencing now an 
eight-month delay in developmental testing due to late delivery 
of hardware and software. And what that has resulted in is 
basically a compression of the schedule for doing the testing. 
So they still want to do the operationally realistic testing on 
the same schedule. That means there is going to be less time 
available to test, find problems and fix them leading up to 
that operationally realistic test.
    Execution of that test, that limited user test, depends 
upon not just fixing problems that are discovered in that now 
shortened developmental test program, but also delivery of a 
functional wideband networking waveform (WNW) that is very 
important. That has to be incorporated in the ground mobile 
radio in order for it to transmit large amounts of information 
like, for example, images from the sensors I just described, 
among other things.
    Developmental versions of that WNW, wideband networking 
waveform, performed poorly in tests that have been conducted 
and drew concerns from the National Security Agency with regard 
to security features. GMR--our program is working to integrate 
a new functional, secure WNW in the GMR prior to a November 
2010 limited user test.
    The GMR is a critical component of the network integration 
kit, and if it is delayed, then presumably there could also be 
an effect, perhaps the delay, on fielding the EIBCT systems.
    Now, the overall schedule leading to all of these tests, as 
I have already alluded to, contains substantial risk, because 
there is little time to address corrective actions. There is 
dependence upon yet to be demonstrated waveforms and network 
management capability, and these requirements need to be 
finalized.
    Mr. Smith. I am sorry to break in here. It is just that all 
this prompts a question that I just can't wait to ask. And that 
is it does not seem like these things are going to be ready 
anytime soon within the configuration that we would need them 
to be. I mean, the UAV alone--I mean, if the whole big 
advantage of the new UAV is that, you know, it has got that 
hoverability, hoverability doesn't do you much good if 
everybody can hear it, and, you know, on down the line of all 
what you put forward.
    In your estimation at this point, does it make sense to 
have any procurement money going in at this point for these 
programs, all of which, if I am hearing you correctly, are not 
just a little tweak here, a little tweak there--I mean, they 
are way off from meeting the capabilities that we are asking 
them for.
    I don't know if you view it as part of your job to make 
this type of a judgment as to whether or not we should be 
procuring these things, but I am curious in light of that, you 
know, explanation of all those deficiencies in all those 
programs, is it foreseeable that by the end of this year they 
will have those things fixed to a level that makes sense to buy 
them? It doesn't seem to me--I mean, a layman's view, but----
    Dr. Gilmore. I would really rather demure on saying whether 
I think it makes sense to try and proceed with production, and 
the reason is that I am supposed to be the objective evaluator 
of the systems.
    Mr. Smith. Okay. Let me ask the question differently.
    Dr. Gilmore. But let me say this.
    Mr. Smith. Yes.
    Dr. Gilmore. Let me say this, which I think will respond to 
part of your question.
    Mr. Smith. Okay.
    Dr. Gilmore. It will be a challenge, a major challenge, to 
correct all the deficiencies that we have identified. And the 
Army acknowledges that. The performance deficiencies that I 
noted are a concern, but the reliability problems are a 
particular concern.
    Based on the experts that we have consulted, the 
reliability shortfalls that were demonstrated in this test 
normally would imply that you would need on the order of 
perhaps two years to do redesign efforts in order to be ready 
and meet the reliability requirements that the Army currently 
says it wants to meet.
    Now, later this year and in fact throughout the year, but 
later this year, I think in the November timeframe, the Army is 
going to need to review progress in improving reliability of 
the systems and also review whether all of those requirements 
actually makes sense, because there is a history of requiring 
more reliability than is needed. We want systems that are 
reliable, but sometimes we try to press too far. And we will 
obviously be involved with the Army in doing that kind of an 
evaluation, so----
    Mr. Smith. And I get that but, you know, in this instance, 
and I will inquire further of you and of others, it doesn't 
seem like, you know, we are looking for a big leap ahead in 
ability and, gosh, you know, we are only getting about halfway 
there, but we are still leaping ahead.
    I am struggling with a lot of these things to see how they 
are any better than what we have right now. Now, granted, I am 
sure there is an answer to that, and I will try to get that. 
But that, I think, is the big question. Is there progress here 
at all in terms of the capability over what we are buying now 
for a lot less money in some instances?
    Dr. Gilmore. Well, we have worked with the Army at the 
direction of Dr. Carter to institute what we call a comparative 
test now for the initial operational test and evaluation, which 
will be done next fiscal year. But in that test we are going to 
have a battalion that is equipped as the units are being 
deployed now, conducting the same missions and being evaluated 
in the same way that a battalion equipped with these systems--
--
    Mr. Smith. And when is that? I am sorry--when is that test?
    Dr. Gilmore. That is next year. That is next fiscal year 
that initial operational test is going to be conducted.
    Mr. Smith. Okay.
    Dr. Gilmore. So we will have information at that time on 
how well the systems are improving the capability of the unit 
through all what we are buying. And we need a battalion's worth 
of equipment in order to do that test.
    Mr. Smith. Okay. Sorry to hijack there--please.
    Dr. Gilmore. Oh, I do it for you.
    Then as far as the ERMP, which is the last system that your 
letter asked me to assess, the secretary directed a surge in 
ISR, intelligence, surveillance and reconnaissance support for 
operations in both Afghanistan and Iraq. And as part of that 
surge, the ERMP Quick Reaction Capability (QRC), there is one 
unit that has already been deployed, and there is a second QRC 
that will be deployed later this year.
    And in the ERMP we have something that we developed for all 
these major systems called a test and evaluation master plan 
(TEMP), which describes how they should be tested. And that so-
called TEMP calls for a series of operational tests conducted 
in conjunction with the unit training to support that surge.
    So what we are doing is incorporating into our test 
planning training to support the surge. These units, these ERMP 
units, are being deployed before full operational testing takes 
place, but we are trying to incorporate the training and other 
things that need to be done to get the units out there early as 
part of our testing plan. And so far that has been quite 
successful.
    The initial operational test and evaluation of the full 
system is scheduled to be conducted in September 2011 with a 
full rate production decision in April 2012. And as I said, 
there will be at least two of these quick reaction units that 
have been deployed prior to that testing.
    The Army conducted what they call a customer test in April 
of last year, and my office provided what we call an early 
fielding report, which is required under law in that 
circumstance, to the defense committees in September 2009, 
assessing the ability of that first Quick Reaction Capability 
of that unit to accomplish its wartime mission.
    And what we found was that--and that testing was conducted 
in flights over Edwards Air Force Base--what we found was that 
that unit did effectively employ the ERMP as it existed at that 
time, although the ERMP, the aircraft, was limited in its 
capability at that time. It didn't have synthetic aperture 
radar. It was not able to employ hellfire missiles. It did not 
have a secure line of sight communications, and it didn't have 
satellite communications capability at that time.
    The development just hadn't proceeded far enough for all 
those capabilities to be ready, but since that customer test in 
April 2009, actually all of those systems, all of those 
additional capabilities have been incorporated in the aircraft, 
and they are being used in Iraq right now, and they will be 
available for the next QRC when it deploys later this year.
    The Army plans to conduct another limited user test at the 
National Training Center this time with the Quick Reaction 
Capability II unit, so that unit will be involved in testing, 
and at the same time it will be training for its deployment 
later this year. And as part of that testing and training, it 
will also be operating with other units with which it will be 
operating when they all go to the theater later this year.
    Full production representative testing will occur in an 
initial operating test in fiscal year 2011 for ERMP, and then 
there will be a follow-on operational test in 2012, because 
there are going to be additional capabilities, in particular 
new synthetic aperture radar incorporated in the aircraft that 
we need to test later on.
    And all of those tests will be conducted in conjunction 
with the unit's deployment to the National Training Center, so 
there will be testing and training that we will be combining in 
that series.
    And so my assessment of what has happened with ERMP, 
notwithstanding the fact that we are deploying this capability 
before we have done full operational testing, the testing that 
has been done has been robust, and it has been very useful, 
because it has been combined with the training, and we do need 
to get these capabilities out as quickly as we can. And I think 
this is a good example of how we have been able to do that and 
also test them.
    Thank you.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 82.]
    Mr. Smith. Thank you.
    Mr. Sullivan.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
        SOURCING, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Bartlett and other members of the committee.
    Before I start, I would just like to introduce Bill 
Graveline here to my left. He has been the assistant director 
on the Future Combat Systems program for GAO for longer than 
probably he wanted to be--probably 8 to 10--well, since 2003. 
So he has got all of our corporate knowledge, and I am kind of 
new to it. I have him in case your questions get too tough.
    It is my pleasure to be here with you today to discuss the 
current status of the Army's modernization efforts since the 
secretary's decision to restructure the Future Combat Systems 
program back in April.
    My testimony will focus on current challenges and 
opportunities for the Army as it moves forward with its 
modernization plans, including its current contracting 
activities, our views on the status of the Brigade Combat Team 
initial increments, and our views on the ground combat 
development effort as well.
    For the time being, the Army is using the modified Future 
Combat Systems development contract to continue to increments 
of development of the Brigade Combat Team equipment and its 
supporting network. It has also awarded a contract to procure a 
long lead items for the initial Brigade Combat Team equipment 
and has issued a modification to that contract recently to 
begin low rate initial----
    Mr. Smith. If I could ask, Mr. Sullivan, your testimony----
    Mr. Sullivan. Yes.
    Mr. Smith. Dr. Gilmore did a pretty thorough job of 
covering a lot of the specific details of that. If you see 
things that are redundant, if we could please move past that.
    Mr. Sullivan. Okay.
    Mr. Smith. We want to get to some questions. I think we get 
kind of the overall gist. If there is something new in addition 
that you want to add----
    Mr. Sullivan. Okay. What I would probably do is just 
summarize our views on how the testing went and where they are 
today in the acquisition strategy.
    In light of the issues that we have discussed here today 
and the problems that they have had in the task and focusing 
mostly on the reliability problems that they had, we are 
concerned at this point that the Army's production decision 
that was approved by the Department is too risky at this point.
    The Army is proceeding with procurement despite having 
acknowledged that the systems are immature, unreliable and 
can't perform as required. The decision to move into production 
with this risk is also at variance with DOD's own acquisition 
policies, some of the new policies and some of the best 
practices that emphasize knowledge-based and incremental 
product development.
    As a result, in our soon to be released report, which is 
out for comment right now and with the committee, I believe--it 
is still in draft form--but we are intending to recommend that 
the Army correct all of the maturity and reliability issues 
with the initial increment that testing has or will identify 
before the Department approves any additional production lots 
moving forward and before any of the systems are fielded. So 
that is kind of where we are on Increment One and follow-on 
increments.
    Our views on the Ground Combat Vehicle development effort 
are perhaps a little more optimistic at this point. DOD made a 
material development decision this February, and over the next 
several months, it will be conducting an analysis of 
alternatives, which has recently been kicked off.
    Once the analysis of alternatives is done, I believe, in 
early fall this year, it is planning to follow that with a 
Milestone A decision on whether to award multiple contracts to 
begin technology development in order to mature technologies 
prior to going to Milestone B.
    In addition, it is currently proposing the use of 
competitive prototyping with multiple contractors during 
technology development, which will emphasize mature 
technologies. And it is planning a preliminary design review to 
validate contractor readiness to go to systems integration 
prior to Milestone B in fiscal year 2013.
    These are all pretty much plans that go according to a lot 
of the new policies that have been laid in, a lot of the 
acquisition reforms that were heard about last year, and tend 
to follow best practices, although they are still very much in 
their infancy and can change. Current plans are to deliver the 
initial vehicle in fiscal year 2017, about seven years from 
Milestone A to first delivery.
    So, Mr. Chairman, as you can see, the current post-Future 
Combat Systems modernization environment is mixed with what is 
going on today, and it is still taking form. It is important to 
note that when we add up all of the funding available in the 
Future Years Defense Plan (FYDP) today for ongoing development 
and procurement funding for Brigade Combat Team increments and 
development funding for the Ground Combat Vehicle, this 
represents about $24 billion of investment in the Army's plan 
budget from 2011 through 2015.
    With that amount of money on the line, it is critical to 
get these things right this time, we think. That is why we will 
also be recommending that the Army report to the Congress by 
the end of the fiscal year the details of its new modernization 
acquisition strategy in full, including plans for program 
management and contracting strategies.
    Mr. Chairman, that completes my statement, and I will be 
happy to take questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 92.]
    Mr. Smith. Thank you very much.
    On the Ground Combat Vehicle, it seems that the Army's--you 
know, they have issued their request for proposal for it at the 
same time they are doing an analysis of alternatives, as I 
understand it. Does that fit with the acquisition policies when 
you do the analysis of alternatives first and then make the 
request? How do those two things mesh?
    Mr. Sullivan. That is a good question, and I think there is 
probably a nuanced answer to this because, first of all, I 
think the analysis of alternatives they are doing is not--you 
know, there are different types, I guess, of analysis of 
alternatives.
    If you are trying to come up with a material solution for a 
new capability to defeat a new threat or something like that, 
you might start an AOA much more broadly and consider first 
whether you need an airplane, a tank or a ship, and then kind 
of get down to what the material solution would be.
    In this case, I think it is pretty clear that they are 
replacing Ground Combat Vehicle, so they start out, I think, 
with less broad scope that way. That is less risky, in my 
opinion.
    What we have done is we have looked at it and asked why 
they would need to be, is there a reason to be concurrently? Is 
there an urgent need for these, the Ground Combat Vehicle, 
right now that they have to press it into an acquisition 
program and start spending a lot of money today? And if there 
isn't, why not take the time? Do an analysis of alternatives, 
which should be informing proposals anyway, probably, for new 
technology.
    That would be the question that we have right now. Why? You 
know, there is no truly urgent need to get this program going 
now, so why not do the AOA first and then see what you get out 
of that and see if that can inform contractors' proposals.
    Mr. Smith. Thank you.
    And, Dr. Gilmore, back on the EIBCT and then the other 
component parts, I think, you know, what I am going to need to 
research more carefully is what exactly is the increase in 
capabilities, as I said. I mean, it is pretty clear that the 
program is not where they want it to be and that it is going to 
take a bit of a pull together there.
    Now, that has all kinds of implications in terms of 
budgetary decisions in the short term, but I am also curious 
that if we are going to make that type of investment, I think 
it is going to need to be a little bit clearer, at least to me, 
why, you know, what is the improvement?
    And I would ask you one question about that. So we are 
going to field a battalion, basically, of the new equipment and 
tough it out as opposed to a battalion of the old equipment. 
Can you walk me through--and this is my ignorance to a certain 
extent--the timing on that, why that is happening? It is 
happening next year, as I understand it. In the meantime we are 
procuring and moving forward with a lot of this equipment and 
testing it.
    I guess I don't understand how that sort of plays out. You 
would like to have that test performed first before you even 
buy all this stuff and figure out whether or not it is going to 
help you. Is this something they have done historically in a 
lot of other programs? Can you enlighten me a little bit?
    Dr. Gilmore. Actually, with regard to conducting initial 
operational test and evaluation, the low rate initial 
production units are used to do that.
    Mr. Smith. Okay.
    Dr. Gilmore. So typically, we start to produce, but we 
would like to make sure that we have production--we have to 
make sure that we have production representative equipment in 
those so-called, low rate initial production (LRIP), units. 
Those are what we buy in order to do operational testing.
    Mr. Smith. Okay.
    Dr. Gilmore. Now, of course, we oftentimes also buy more of 
these LRIP units than are actually needed for testing for the 
reasons.
    Mr. Smith. Right.
    Dr. Gilmore. But the short answer to your question is yes, 
this is what we typically do.
    Mr. Smith. Right. And is there an additional threshold in 
terms of--because, obviously, you don't want to procure a bunch 
of stuff that you know isn't going to work, just to run this 
test. So I imagined there is an initial threshold of, okay, let 
us get it to this point, and then we procure for the test that 
we are talking about. Is that the way it plays out?
    Dr. Gilmore. Our major concern, I mean, the exact threshold 
that is associated with approving Milestone C, it has not been 
my experience there is an exact threshold. There is a lot of 
judgment involved there----
    Mr. Smith. Okay.
    Dr. Gilmore [continuing]. Judgment on the part of the 
Department's leadership, particularly the Under Secretary for 
Acquisition. And Dr. Carter in his acquisition decision 
memorandum (ADM), which I assume you have read, acknowledged 
clearly all of the problems that I have discussed----
    Mr. Smith. But made the decision to go ahead.
    Dr. Gilmore. But as I recall, the ADM said because of the 
secretary's direction to provide capability to our soldiers in 
the field as quickly as possible, we will proceed. But he has 
specified a number of constraints on funding. There are also a 
number of reviews that he is going to conduct throughout the 
year, including reviews of the results of this production 
qualification testing and other testing on the EIBCT systems. 
There are going to be at least two of those reviews this year 
to review those results.
    So, yes, we do use these LRIP units. It is a matter of 
judgment as to when a Milestone C is granted, you know, whether 
it should be granted, given progress in the program. When it is 
to initial operational test and evaluation, which will be in 
the fourth quarter of 2011--I think you were pressing me for a 
little bit more specificity on when it would be--it is 
currently scheduled for the fourth quarter of 2011.
    We would insist upon fully production representative 
equipment, and there are other so-called operational test and 
readiness criteria that are specified in this test and 
evaluation master plan, capabilities in terms of reliability 
and performance that the equipment should have demonstrated at 
that point.
    Mr. Smith. Okay.
    Dr. Gilmore. Basically, it needs to be fully production 
representative.
    Mr. Smith. Makes sense.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Dr. Gilmore, as you know, the Increment One Early Infantry 
Brigade acquisition decision memorandum signed by Dr. Carter 
directs DOT&E and the Army to conduct, as part of the initial 
operational test and evaluation, a comparative test of the 
EIBCT equipped units with units equipped as currently deployed 
for operations.
    Given the reliability and maturity concerns that have 
already been discussed, this is obviously going to be a very 
important test. Can you give us an idea of how the planning is 
going, if you have any issues or concerns going forward with 
this comparative test?
    Dr. Gilmore. As was directed in the ADM you mentioned, I 
was asked to work with the Army to develop an initial plan, 
which I have done, which was also supposed to contain detailed 
information on the measures of effectiveness and measures of 
performance that we would use to compare the ability of both of 
these units equipped with the systems and not, to accomplish 
wartime missions. And that has all been done.
    The planning will continue over the next many months. We 
have to decide on what kinds of scenarios that we are going to 
use. I am interested in making sure that we have distressing 
scenarios, you know, a mission that will be hard to accomplish, 
that involves surprise, so that we can discern the benefits in 
situational awareness that the sensors in the EIBCT system are 
supposed to provide.
    They are supposed to provide enhanced situational 
awareness, and then the NLOS-LS is supposed to provide a 
somewhat unique capability to hit moving targets, and so we 
want to make sure that scenarios are constructed to highlight 
those features as well or show that we haven't achieved an 
increase in capability in that regard.
    So I guess I would say in summary that we have started 
well. We have detailed measures of effectiveness that we will 
continue to look at and evolve. And we have embarked on a 
process to define the scenarios and do the other planning that 
is necessary, and that is going well.
    The one thing I am concerned about, and I am concerned 
about this with regard to the second limited user test that is, 
you know, another company level test that is supposed to be 
done later this year, is that we not repeat the problems that 
we had in the limited user test that was done this past year, 
where we had a good test plan, but we did not execute it.
    We did not collect as much data as we could. We think that 
a number of the failures that occurred actually weren't 
reported, so probably these estimates of reliability that are 
in my detailed testimony are actually optimistic, even though 
they are not very good.
    We want to make sure that we don't commit those same 
mistakes again, and we are working hard with the Army, with the 
Army Test and Evaluation Command, to make sure that we have 
enough observers and enough gatherers of data and interpreters 
of data and analyzers of data so that we don't re-create those 
problems that really caused a lot of lost information in the 
last test.
    And given my conversations with the leadership of the Army 
Test and Evaluation Command and the interactions my staff is 
continuing to have with them, I am fairly confident we won't 
re-create those problems.
    Mr. Bartlett. Thank you.
    Mr. Sullivan, this is more of an acquisition policy lessons 
learned kind of question. I would like for you to compare and 
contrast two things. Number one, what went wrong in terms of 
acquisition strategies with the DOD Army decision to begin low 
rate production for Increment One of BCT modernization with 
two, what the Army is promising and what we hope transpires as 
they move ahead with the Ground Combat Vehicle?
    Mr. Sullivan. Yes, sir. Good question. I think what went 
wrong with the Increment One is basically if you look at DOD's 
new policies and the things that have come out of some of the 
legislation that was passed last year, and if you look at best 
practices that GAO has looked at a lot from some world-class 
companies, who developed some pretty complicated products, what 
you find is the new policy calls for reliability growth curves 
coming out of the critical design review that is based on 
production representative prototypes.
    Add to it that before you have a Milestone C, typically, 
you want to have a reliability growth curve established, which 
is basically mean time between failure rates and things like 
that that you have plotted on a curve and you have established 
on that curve a trend towards improvement.
    That is what you need to have established in order to 
reduce the risk enough to go to low rate procurement. And we 
don't believe they did that. We think that they have not 
established the trend yet and so that the decision to begin low 
rate production and commit procurement dollars to that 
Increment One is too early and too risky. That is what we mean 
when we say it is at variance with the new policies and with 
best practices.
    But what we see in Ground Combat Vehicle is a program, a 
plan that has been laid out that really pretty much you can see 
that they have taken the reform legislation, the changes to the 
acquisition policies that have been put into the 5000 Series, 
and looked at a lot of the best practices and are trying to do 
things much more incrementally, much more knowledge-based.
    They have a plan now to go with only mature technologies. 
They are going to do a lot of competition early. There are a 
lot of systems engineering funding upfront in order to get 
requirements right. You know, the one thing we would question 
why they are doing--they have let proposals out before they are 
done with an AOA, but we still think the AOA will be done in 
time to inform the technology development part of this.
    And so the program as is laid out now reduces risks at the 
proper time. It is trying to--it has got plans in there to 
balance requirements, to take care of the trade space before 
they made that Milestone B decision, which is where really the 
big money starts getting spent on an acquisition program.
    The Increment One for the Brigade Combat Teams has rushed--
they have kind of rushed through that low rate procurement 
decision.
    Mr. Bartlett. Thank you.
    Dr. Gilmore. If I could, I would like to make one comment 
on reliability growth planning with regard to the EIBCT. The 
test and evaluation master plan for EIBCT has recently been 
revised. It is setting in my office. It now incorporates 
detailed reliability growth planning and reliability growth 
curves in testing. So I think that is relevant to the 
discussion.
    Mr. Smith. And just so I follow up a little bit and be 
educated along the way here--I know some of it; I have seen 
some of it, but keeping track of all of it is complicated, but 
very important--as I understand it, we already in 2010 we have 
procured the money for the test battalion, basically.
    And they haven't spent that yet for the very simple reason 
that they don't have a product worth buying yet. So they have 
still got that money. And then what they are asking us to do 
and what has been put into this budget is actually to procure--
and correct if I am wrong--three out of the nine brigades long-
term with that equipment, which just initially, you know, it 
seems like a pretty big pull.
    So that is going beyond the test step, before any of this 
testing is done, and that even if you were willing to take that 
risk with this program, because you do have to take some risks. 
I do recognize that. We want to get this stuff in the field so 
that, you know, our troops have what they need. And you can't, 
you know, wait for everything to be perfect before you do that. 
I understand that balance.
    But within the acquisition area, this sort of advance 
procurement before testing is approved, again as I understand 
it, it is supposed to be somewhere in the 10 percent of what 
you are buying range. Three out of nine rather comfortably 
above 10 percent--doesn't that violate the acquisition reform 
approach that we have done? And what do your--first of all, 
does it? And second of all, what would be the justification for 
doing that?
    Did you want to----
    Dr. Gilmore. As I am reading the ADM here, it says that Dr. 
Carter approved low rate initial production for one Brigade 
Combat Team and long lead of no more than $70 million, which is 
a down payment for the second Brigade Combat Team.
    Mr. Smith. Okay.
    Dr. Gilmore. And anything in addition to that is going to 
be dependent upon the results of the testing and everything 
else that is done this year and the outcome of these two in 
progress reviews that are going to be conducted. That is my 
understanding.
    Mr. Smith. That is two instead of three.
    Dr. Gilmore. Yes, well, it is sort of one-plus instead of 
three. It is one--he approved the procurement for one EIBCT and 
long lead, but not for funding for the second. So, yes, we have 
started, but we haven't committed to all three.
    And then procurement of the non-line of sight launch system 
was limited to $35 million, depending on completion of flight 
testing, and that flight testing was just completed last month. 
And that will be the subject of some of these reviews that take 
place over the next few months.
    So I add that information to you.
    Mr. Smith. Okay.
    Dr. Gilmore. That is my understanding of what is going on. 
And I think I have already commented upon, as much as I can----
    Mr. Smith. Absolutely.
    Dr. Gilmore [continuing]. On the rationale for the 
Milestone C decision to proceed with low rate initial 
procurement.
    Mr. Smith. Gotcha.
    Mr. Sullivan.
    Mr. Sullivan. Yes, I wouldn't dispute that Dr. Carter 
looked at this very carefully and understands the risks and has 
put some decision-making in there to try to mitigate those 
risks.
    But I guess what we see is when you have--if I could just 
for a minute, in 2003 that--in 2003 when Future Combat Systems 
started as another transaction, by the way, that was right 
after the Department did their last policy revisions for 
acquisition policy and tried to put more risk mitigation into 
those policies.
    This is just so reminiscent of that. You know, you have 
policies for a reason. So there is momentum. I guess my point 
is that they are past Milestone C now.
    I believe--don't quote me on this, but I think somewhere 
around $400 million of procurement money is in the fiscal year 
2010 budget, and another 600-and-some, so by next year, if that 
budget holds, they will have $1 billion of procurement money 
invested in Increment One, and they don't know the reliability 
at all at this point. So it is a variance threat.
    Mr. Smith. No, that certainly seems to me to be at least 
worthy of a raised eyebrow and further inquiry.
    Mr. Sullivan. And I think that is kind of where we are now 
as with the raised eyebrow, you know. It is just beginning, and 
we want to stay in there. The recommendations we are making, we 
don't believe they are draconian in any way and probably are 
reasonable. So we have to keep an eye on them.
    Mr. Smith. I think that is all we have got.
    Oh, sorry. Mr. Bartlett.
    Mr. Bartlett. I would like to join the chairman in his 
concern about rush to procurement, when the equipment that we 
are now using is not demonstratively deficient. I think of the 
MRAPs program, and clearly, there was a clear and urgent need 
for MRAPs, and we pulled out all the stops and made that 
procurement in record time.
    But where there is no driving need like that, I am having 
some trouble, along with the chairman, understanding why we 
rush so much with such huge expenditures of money. If what we 
have got is pretty good, why can't we do it very deliberatively 
with much less expenditure of money and much less risk?
    Mr. Sullivan. I just think that is an excellent point. In 
MRAP, you know, they made the trades early, told the warfighter 
what they were going to get before they started, and then 
delivered that. And here, the requirements may go down on this 
before it is all done, and that should have happened in 
Milestone B----
    Mr. Bartlett. Right.
    Mr. Sullivan [continuing]. Or before Milestone C, anyway.
    Mr. Smith. And I will just conclude by saying that is 
something we are going to be taking a very, very close look at, 
you know, is the requirements.
    And throughout this whole discussion, I am reminded of 
something that my predecessor, Mr. Abercrombie, said about the 
Future Combat Systems, which was, you know, it seems like the 
Army, you know, was tired of the Navy and the Air Force having 
all these big-ticket items going way crazy over budget and 
getting all the money. And, you know, they are the Army, so 
they get just a little piece here, a little there, so they had 
to come up with their own massive program so they could get a 
piece of that as well. He, obviously, was being facetious.
    And I do understand clearly the need, you know, to update 
our brigades as we go forward. But I think we have to go from 
just sort of that general understanding that with technology, 
with improvements and innovation, we want to try to get, you 
know, the best equipment out there as often as we can with a 
clear understanding of what that improvement is, not just the 
general notion that, you know, the next thing we build is 
always going to be better than the last thing we built, so we 
had better start building something new, which I realize is not 
what they have done.
    But they have got to come up with much more specificity as 
to why this is getting better and how it is going to get 
better, if we are going to proceed on this. And we will 
continue to work on that in the weeks and months ahead before 
we do our bill out of committee.
    And then I imagine we will continue to work on this 
throughout the legislative process as, you know, any of these 
problems will have some ongoing testing. There will be 
certainly further analysis, and we will want to see that on a 
regular updated basis and make adjustments accordingly in what 
is in our authorization bill.
    So I thank you gentlemen for your work--very technical, 
very difficult, and very, very important to do our best to get 
it as right as we possibly can. And we certainly could not do 
that without both of you and our previous panel as well. So 
thank you very much for your testimony.
    And with that, we are adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             March 10, 2010

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 56269.001
    
    [GRAPHIC] [TIFF OMITTED] 56269.002
    
    [GRAPHIC] [TIFF OMITTED] 56269.003
    
    [GRAPHIC] [TIFF OMITTED] 56269.004
    
    [GRAPHIC] [TIFF OMITTED] 56269.005
    
    [GRAPHIC] [TIFF OMITTED] 56269.006
    
    [GRAPHIC] [TIFF OMITTED] 56269.007
    
    [GRAPHIC] [TIFF OMITTED] 56269.008
    
    [GRAPHIC] [TIFF OMITTED] 56269.009
    
    [GRAPHIC] [TIFF OMITTED] 56269.010
    
    [GRAPHIC] [TIFF OMITTED] 56269.011
    
    [GRAPHIC] [TIFF OMITTED] 56269.012
    
    [GRAPHIC] [TIFF OMITTED] 56269.013
    
    [GRAPHIC] [TIFF OMITTED] 56269.014
    
    [GRAPHIC] [TIFF OMITTED] 56269.015
    
    [GRAPHIC] [TIFF OMITTED] 56269.016
    
    [GRAPHIC] [TIFF OMITTED] 56269.017
    
    [GRAPHIC] [TIFF OMITTED] 56269.018
    
    [GRAPHIC] [TIFF OMITTED] 56269.019
    
    [GRAPHIC] [TIFF OMITTED] 56269.020
    
    [GRAPHIC] [TIFF OMITTED] 56269.021
    
    [GRAPHIC] [TIFF OMITTED] 56269.022
    
    [GRAPHIC] [TIFF OMITTED] 56269.023
    
    [GRAPHIC] [TIFF OMITTED] 56269.024
    
    [GRAPHIC] [TIFF OMITTED] 56269.025
    
    [GRAPHIC] [TIFF OMITTED] 56269.026
    
    [GRAPHIC] [TIFF OMITTED] 56269.027
    
    [GRAPHIC] [TIFF OMITTED] 56269.028
    
    [GRAPHIC] [TIFF OMITTED] 56269.029
    
    [GRAPHIC] [TIFF OMITTED] 56269.030
    
    [GRAPHIC] [TIFF OMITTED] 56269.031
    
    [GRAPHIC] [TIFF OMITTED] 56269.032
    
    [GRAPHIC] [TIFF OMITTED] 56269.033
    
    [GRAPHIC] [TIFF OMITTED] 56269.034
    
    [GRAPHIC] [TIFF OMITTED] 56269.035
    
    [GRAPHIC] [TIFF OMITTED] 56269.036
    
    [GRAPHIC] [TIFF OMITTED] 56269.037
    
    [GRAPHIC] [TIFF OMITTED] 56269.038
    
    [GRAPHIC] [TIFF OMITTED] 56269.039
    
    [GRAPHIC] [TIFF OMITTED] 56269.040
    
    [GRAPHIC] [TIFF OMITTED] 56269.041
    
    [GRAPHIC] [TIFF OMITTED] 56269.042
    
    [GRAPHIC] [TIFF OMITTED] 56269.043
    
    [GRAPHIC] [TIFF OMITTED] 56269.044
    
    [GRAPHIC] [TIFF OMITTED] 56269.045
    
    [GRAPHIC] [TIFF OMITTED] 56269.046
    
    [GRAPHIC] [TIFF OMITTED] 56269.047
    
    [GRAPHIC] [TIFF OMITTED] 56269.048
    
    [GRAPHIC] [TIFF OMITTED] 56269.049
    
    [GRAPHIC] [TIFF OMITTED] 56269.050
    
    [GRAPHIC] [TIFF OMITTED] 56269.051
    
    [GRAPHIC] [TIFF OMITTED] 56269.052
    
    [GRAPHIC] [TIFF OMITTED] 56269.053
    
    [GRAPHIC] [TIFF OMITTED] 56269.054
    
    [GRAPHIC] [TIFF OMITTED] 56269.055
    
    [GRAPHIC] [TIFF OMITTED] 56269.056
    
    [GRAPHIC] [TIFF OMITTED] 56269.057
    
    [GRAPHIC] [TIFF OMITTED] 56269.058
    
    [GRAPHIC] [TIFF OMITTED] 56269.059
    
    [GRAPHIC] [TIFF OMITTED] 56269.060
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 10, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. KISSELL

    General Lennox. The Army is actively acquiring and pursuing a broad 
range of capabilities to counter an equally broad range of cyber 
threats. For example, the Army is acquiring capabilities that not only 
address network and enclave perimeter security but also host-based 
security, e-mail security, web security, cyber situational awareness, 
cyber forensics analysis and other requirements. Concurrently, the Army 
is transforming the business processes for procurement and acquisition 
of products that defend against cyber attacks, beginning with its 
process for vetting Information Assurance (IA) products. The Army has 
hosted several meetings with other DoD organizations, including Office 
of the Secretary of Defense/Networks Information Integration (OSD/NII) 
and the Defense Information Systems Agency (DISA), to discuss testing 
at the product level. The Army is actively engaged with OSD/NII in the 
staffing of DODI 8100.EE, Unified Capability, which is intended to 
establish procedures for achieving reciprocity throughout DoD for key 
information technology products. [See page 18.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 10, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. KISSELL

    Mr. Kissell. During the hearing I asked about the Army's 
procurement and acquisition of products to defend against cyber 
attacks. Is the Army pursuing feasible solutions to the wide variety of 
cyberthreats?
    General Lennox and General Phillips. The Army is actively acquiring 
and pursuing a broad range of capabilities to counter an equally broad 
range of cyber threats. For example, the Army is acquiring capabilities 
that not only address network and enclave perimeter security but also 
host-based security, e-mail security, web security, cyber situational 
awareness, cyber forensics analysis and other requirements. 
Concurrently, the Army is transforming the business processes for 
procurement and acquisition of products that defend against cyber 
attacks, beginning with its process for vetting Information Assurance 
(IA) products. The Army has hosted several meetings with other DoD 
organizations, including Office of the Secretary of Defense/Networks 
Information Integration (OSD/NII) and the Defense Information Systems 
Agency (DISA), to discuss testing at the product level. The Army is 
actively engaged with OSD/NII in the staffing of DODI 8100.EE, Unified 
Capability, which is intended to establish procedures for achieving 
reciprocity throughout DoD for key information technology products.
    Mr. Kissell. Is the Army integrated into the national defense 
strategy?
    General Lennox and General Phillips. Yes, the Army is fully 
integrated into the national defense strategy. As stated in the report 
of the 2010 Quadrennial Defense Review, the national defense strategy 
recognizes that ``the Department of Defense balances resources and risk 
among four priority objectives: prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force.''
    Due to our national objectives and the character of the conflict in 
Afghanistan and Iraq, Army forces--multipurpose and special 
operations--are the forces of choice for prevailing in today's wars. 
Both of those wars involve operations among the people which highly 
value the human intelligence capabilities of ground forces and the 
discriminate, precision application of force that only ground forces 
can provide. Your Army also provides the expeditionary endurance 
necessary to convert immediate battlefield successes into longstanding 
strategic success.
    In nearly all of our Nation's wars, significant ground forces have 
played a central role in achieving our national political objectives. 
The same is true today in Afghanistan and Iraq. Army forces are 
versatile. They can be employed across the spectrum of operations to 
support civil authorities and render assistance to distressed people, 
to restore basic services to populations, to secure and rebuild nations 
as part of the interagency team, and defeat state and non-state forces 
that threaten our national interests or our allies.
    Finally, the priority objective of preserving and enhancing the 
All-Volunteer Force is aimed, we believe, directly at the Army. Our 
Soldiers and their Families have willingly and selflessly deployed 
multiple times to Iraq and Afghanistan, but the stress of eight plus 
years at war is felt on every Army installation, in every Army unit, 
and in every Army Family. We are dedicated to doing whatever is 
necessary to fully support those Soldiers and Families that have 
dedicated their lives to the defense of our Nation.
    Mr. Kissell. How does Cyber Command plan on organizing, training, 
and coordinating with the Services?
    General Lennox and General Phillips. As Cyber Command is under the 
purview of U.S. Strategic Command, issues related to that organization 
are outside our purview upon which to provide a response.
    Mr. Kissell. Is the Army vulnerable to an attack that could 
compromise operations in Iraq, Afghanistan, or Korea?
    General Lennox and General Phillips. Just like any organization 
with a large computer network, the Army faces daily risk of attacks and 
is constantly identifying and defending against new and emerging 
threats. While network security in a combat zone is of high importance 
and has its own specific and particular challenges, the Army approaches 
network security at a global level. Vulnerabilities in any part of the 
network potentially create a possible attack vector, which ultimately 
could affect Army operations. Risks range from something as simple as 
poor user training and out-of-date anti-virus software, to complex 
cyber attacks requiring the investment of millions of dollars to 
mitigate if the attack is successful. These costs do not begin to 
qualify or to quantify the impact to operations when a network is 
unavailable.
    Currently, thousands of potential threats are defeated every day 
via technology fielded through multiple layers of network defense; and 
a structured, tiered response to actual incidents that minimizes the 
impact and the cost to operations. Additionally, the Army continues to 
identify and to invest in new technologies in order to keep pace with 
the known and predicted threats.
    To meet the unique capabilities that Army operations require, the 
Army, under a three-star billet, will stand up Army Forces Cyber 
Command (ARFORCYBER), which also will support U.S. Cyber Command. The 
majority of the forces for a combined Army operations center are 
already in place at Fort Belvoir, VA. The new command will bring 
unprecedented unity of effort and will synchronize all Army forces 
operating within the cyber domain.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS
    Mr. Owens. Section 818 of the Fiscal Year 2010 National Defense 
Authorization Act allows the Secretary of Defense to ``eliminate, 
modify, or add to the firms included in the small arms production 
base.'' The original small arms industrial base legislation limiting 
competition was based on a 1994 Army Science Board report. Since the 
industry has substantially changed in the last 16 years, what changes 
will you make to the small arms industrial base to expand competition 
and encourage innovation?
    General Lennox. The Army will review its requirements for small 
arms critical repair parts and industrial capability to meet those 
repair parts requirements. If and when the Army determines that changes 
are supportable, the Army will make appropriate recommendations for 
change to the Secretary of Defense. At this time, the Army has no 
difficulty in acquiring critical repair parts, barrels, bolts and 
receivers, for the designated small arms.
    Mr. Owens. The Army Procurement Justification Book indicates the 
Army requests $20.1 million to procure 11,494 M4 carbines and that the 
carbines will be procured from Colt Manufacturing Company, Inc. with a 
sole source, firm fixed price contract. Why is this a sole source 
contract and not competitively bid?
    General Lennox. The Army is initiating a new Individual Carbine 
full and open competition to potentially replace the M4. Until the new 
carbine is fielded, the Army must continue to sustain the M4 
capability. If the Army were to compete the production of the M4, and a 
new vendor was selected, it would take up to two years to qualify the 
new vendor's production line and would cause up to a two year break in 
M4 deliveries. As a result, the Army's plans to seek a sole source 
justification and authorization for these reduced production 
deliveries.
    Mr. Owens. What are the Army's plans to develop, test, and compete 
a follow-on to the M4?
    General Lennox. The Army will initiate a Full and Open competition 
for the next Individual Carbine (IC) as soon as the IC Capabilities 
Development Document is validated by the Joint Requirements Oversight 
Council. The candidate weapon systems will undergo various 
environmental and performance testing before the selection of the best 
overall candidate. The successful offeror will take over delivery of 
carbines to the Army as soon as it successfully completes all necessary 
additional testing, the production line quality is verified, and the 
production capacity is sufficient to meet the Force's fielding 
requirements.

                                  <all>

</pre></body></html>
